<html>
<title> - EXAMINING DHS'S MISPLACED FOCUS ON CLIMATE CHANGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









           EXAMINING DHS'S MISPLACED FOCUS ON CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 8, 2015

                               __________

                           Serial No. 114-24

                               __________

       Printed for the use of the Committee on Homeland Security
                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                                
    
                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-170 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                           
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Cedric L. Richmond, Louisiana
Earl L. ``Buddy'' Carter, Georgia    Norma J. Torres, California
Barry Loudermilk, Georgia            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
         Cedric C. Haynes, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Oversight and Management Efficiency.........................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                               WITNESSES
                                Panel I

Mr. Thomas P. Smith, Acting Assistant Secretary for Strategy, 
  Planning, Analysis, and Risk, Office of Policy, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Roy Wright, Deputy Associate Administrator, Federal Insurance 
  and Mitigation Administration, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Robert Kolasky, Deputy Assistant Secretary, Infrastructure 
  Protection, National Protection and Programs Directorate, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17

                                Panel II

Mr. Marc A. Levy, Deputy Director, Center for International Earth 
  Science Information Network, Columbia University:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40

 
           EXAMINING DHS'S MISPLACED FOCUS ON CLIMATE CHANGE

                              ----------                              


                        Wednesday, July 8, 2015

             U.S. House of Representatives,
                     Subcommittee on Oversight and 
                             Management Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 311, Cannon House Office Building, Hon. Scott Perry 
[Chairman of the subcommittee] presiding.
    Present: Representatives Perry, Duncan, Clawson, Carter, 
Loudermilk, Watson Coleman, Torres, and Thompson.
    Mr. Perry. Good morning, ladies and gentlemen.
    The Committee on Homeland Security Subcommittee on 
Oversight and Management Efficiency will come to order.
    The purpose of this hearing is to examine the Department of 
Homeland Security's rhetoric and actions regarding the subject 
of climate change and homeland security.
    The Chair now recognizes itself for an opening statement.
    Our Nation is facing serious threats to our security. 
Thousands of foreign fighters have joined the ranks of ISIS to 
wage a global jihadi war. Hundreds of these fighters are 
returning to Europe and the United States, raising the risk of 
domestic terror attacks.
    Our cyber networks are under siege by foreign governments, 
hacktivists, and other groups. In the latest cyber attack 
against the Office of Personnel Management, untold millions of 
current and former Federal employees' information was stolen, 
including highly sensitive background information used for 
vetting security clearances.
    The threats we face are significant, numerous, and on 
multiple fronts. Yet the recent reports of a 96 percent failure 
rate by airport screeners show that our security programs are 
vulnerable and of questionable effectiveness.
    Considering all these threats and a myriad of others, I am 
shocked that the Department of Homeland Security continues to 
make climate change a top--top--priority.
    Last year, one of Secretary Jeh Johnson's first acts was to 
approve and sign the 2014 Quadrennial Homeland Security Review, 
known as the QHSR. This is the key document for DHS, intended 
to guide strategic planning, budget, and operations--strategic 
planning, budget, and operations. The QHSR was over 6 months 
late, in part to allow time for the Secretary to review it.
    According to the final document, trends associated with 
climate change present major areas of homeland security risk. 
The QHSR goes on to note how climate change and associated 
trends can act as threat multipliers. It includes examples of 
how weather changes may lead to increased illegal immigration 
and melting sea ice could lead to increased smuggling and 
trafficking.
    The QHSR concludes that climate change fundamentally will 
alter the homeland security strategic environment. I wonder if 
the conclusion is based on fact or propaganda.
    The rhetoric used in the 2014 QHSR largely parallels past 
strategic documents released by DHS under this administration, 
including a Climate Change Adaptation Policy and Climate Change 
Action Plan. In these documents, DHS was bold enough to assert 
that climate change poses a direct security risk--direct 
security risk--to the Nation.
    Former DHS Secretary Janet Napolitano stated that climate 
change was one of the greatest challenges of our time. No 
doubt. DHS also implied that extreme weather conditions can 
lead to militant groups to become active. Are the American 
people to believe that the increased operation by ISIS or al-
Qaeda or Khorasan or Boko Haram are due to hot weather or a 
shortage of water? Such assertions, to me, are ridiculous and, 
frankly, insulting.
    The QHSR focus on climate change raises serious questions 
about this strategy and, candidly, the associated judgment 
therewith. Last year, this subcommittee voiced concern when the 
QHSR strategy was released about how it failed to address 
threats from nation-state actors such as Iran, China, and 
Russia. With so many threats facing us, it is utterly 
incomprehensible to highlight climate change while remaining 
silent on foreign threats.
    In fiscal year 2016, DHS requested over $16 million on 
critical infrastructure analysis and FEMA workshops related to 
climate change--more than the Secret Service requested to 
improve its training facilities following the high-profile 
breach of the White House last September. Yet, in preparation 
for this hearing, even the Congressional Research Service was 
unable to ascertain the total amount being spent by DHS on 
climate change.
    In addition, the Government Accountability Office has 
reported that numerous Federal offices and committees work on 
issues related to climate change. Given the lack of 
transparency with the budget, the American people have no 
assurance as to how their tax dollars are being spent. I hope 
to hear from DHS witnesses with regard to activities on-going 
related to climate change and how taxpayer dollars are being 
spent.
    At the Coast Guard Academy graduation in May, President 
Obama said that climate change constitutes a serious threat to 
global security, an immediate risk to our National security. 
Statements like these boldly contrast with the President's 
efforts to broker a deal with Iran and his failure to call the 
enemy what it is--radical Islamist extremism--and show just how 
misplaced are the priorities of this administration.
    DHS faces enormous challenges protecting our citizens from 
an array of global threats, and we appreciate the work they do 
in that vein. Ignoring the factual, very real, and true 
security risks facing our Nation in order to satisfy political 
constituencies is irresponsible, to say the very least, and 
puts our Nation at grave risk.
    Thus endeth the Chairman's statement.
    [The statement of Mr. Perry follows:]
                   Statement of Chairman Scott Perry
                              July 8, 2015
    Our Nation is facing serious threats to our security. Thousands of 
foreign fighters have joined the ranks of ISIS to wage a global jihadi 
war. Hundreds of these fighters are returning to Europe and the United 
States, raising the risk of domestic terror attacks. Our cyber networks 
are under siege by foreign governments, ``hacktivists'', and other 
groups. In the latest cyber attack against the Office of Personnel 
Management, untold millions of current and former Federal employees' 
information was stolen, including highly sensitive background 
information used for vetting security clearances. The threats we face 
are significant, numerous, and on multiple fronts; yet, the recent 
reports of a 96 percent failure rate by airport screeners show that our 
security programs are vulnerable and ineffective. Considering all of 
these threats--and a myriad of others--I am outraged that the 
Department of Homeland Security (DHS) continues to make climate change 
a top priority.
    Last year, one of Secretary Jeh Johnson's first acts was to approve 
and sign the 2014 Quadrennial Homeland Security Review, known as the 
QHSR. This is the key document for DHS intended to guide strategic 
planning, budget, and operations. The QHSR was over 6 months late, in 
part to allow time for the Secretary to review it. According to the 
final document, ``trends associated with climate change present major 
areas of homeland security risk.'' The QHSR goes on to note how climate 
change and associated trends can act as ``threat multipliers''; it 
includes examples of how weather changes may lead to increased illegal 
immigration and melting sea ice could lead to increased smuggling and 
trafficking. The QHSR concludes that climate change fundamentally will 
alter the homeland security strategic environment.
    The rhetoric used in the 2014 QHSR largely parallels past strategic 
documents released by DHS under this administration--including a 
Climate Change Adaptation Policy and Climate Change Action Plan. In 
these documents, DHS was bold enough to assert that climate change 
poses a direct security risk to the Nation. Former DHS Secretary Janet 
Napolitano stated that climate change was one of the ``greatest 
challenges of our time.'' DHS also implied that extreme weather 
conditions can lead to ``militant groups to become active.'' Are the 
American people to believe that the increased operations by ISIS are 
due to hot weather or a shortage of water? Such assertions are 
ridiculous and, frankly, insulting.
    The QHSR focus on climate change raises serious questions about 
this strategy. Last year, this subcommittee voiced concern when the 
QHSR strategy was released--about how it failed to address threats from 
nation-state actors, such as Iran, China, and Russia. With so many 
threats facing us, it's utterly incomprehensible to include climate 
change, yet stay silent on foreign threats.
    In fiscal year 2016, DHS requested over $16 million on critical 
infrastructure analysis and FEMA workshops related to climate change--
more than the Secret Service requested to improve its training 
facilities following the high-profile breach of the White House last 
September. Yet in preparation for this hearing, even the Congressional 
Research Service was unable to ascertain the total amount being spent 
by DHS on climate change. In addition, the Government Accountability 
Office has reported that numerous Federal offices and committees work 
on issues related to climate change. Given the lack of transparency 
with the budget, the American people have no assurance as to how their 
tax dollars are being spent. I want to hear from the DHS witnesses with 
regard to activities on-going related to climate change and how 
taxpayer dollars are being spent.
    At the Coast Guard Academy graduation in May, President Obama said 
that ``climate change constitutes a serious threat to global security, 
an immediate risk to our National security.'' Statements like these 
contrast with the President's efforts to broker a deal with Iran and 
failure to call the enemy what it is--radical Islamist extremism, and 
show just how misplaced are the priorities of this administration. DHS 
faces enormous challenges protecting our citizens from an array of 
global threats. Ignoring the true security risks facing our Nation in 
order to satisfy political constituencies is irresponsible and puts us 
at grave risk.

    Mr. Perry. The Chairman now recognizes the Ranking Minority 
Member of the subcommittee, the gentlelady from New Jersey, 
Mrs. Watson Coleman, for any statement she may have.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. I appreciate 
the opportunity to include Democratic Members' concerns with 
this hearing.
    The title of this hearing presumes that Department of 
Homeland Security programs and DHS's coordination by the 
Executive Office of the President demonstrates a misplaced 
focus on security risks linked to climate change. Chairman 
McCaul's May 20 statement belittles these necessary efforts as 
``climate politics,'' and I strongly disagree with this 
assessment.
    The DHS fiscal year 2016 budget request includes several 
important activities designated as responses to climate change, 
among other purposes, such as hazard mapping and risk analysis 
to support the National Flood Insurance Program; planning and 
implementation of physical measures to avoid or reduce damage 
associated with natural disasters; critical infrastructure 
assessments; and DHS State, local, and Tribal workshops to 
build their capacity, inform preparedness activities, and 
validate their capabilities.
    Mr. Chairman, I recognize that today's hearings will 
probably not lead you and me to agree on the sources or 
implications of carbon that is released into our atmosphere by 
human activity. Nonetheless, to me, it is essential for DHS to 
pursue activities like those I described earlier, regardless of 
the Department's views on the sources of climate change.
    In fact, last year, our colleagues in the Senate Homeland 
Security Committee held a hearing titled ``Extreme Weather 
Events: The Cost of Not Being Prepared.'' At that hearing, 
Senator Johnson, who now chairs that committee, described the 
lack of investment in disaster mitigation as penny-wise and 
pound-foolish.
    Mr. Chairman, we cannot afford to be penny-wise and pound-
foolish when it comes to disaster mitigation. Events from New 
Jersey to the Gulf Coast have required the deployment of DHS 
capabilities, ranging from search-and-rescue, to humanitarian 
relief, to law enforcement assistance. Neither my constituents 
nor yours will soon forget the devastation of Hurricane Sandy, 
which cost $67 billion in damages caused.
    Beyond just weather and climate events, Mr. Chairman, 
social scientists, including some within the U.S. intelligence 
community, have indicated that weather changes across the globe 
may play a role in dislocating populations, intensifying 
violent conflict and crime, promoting disease transmission, and 
aggravating economic and social stresses that destabilize 
governments. These factors make populations more vulnerable to 
incitement by extremist elements and are squarely in the 
purview of the Department's most vital duties.
    At the publication last month of Pope Francis' Encyclical 
Letter ``On Care for Our Common Home,'' my Democratic colleague 
on the committee, Mr. Langevin of Rhode Island, noted the 
emphasis on the disproportionate impacts that climate change 
will have on the world's poor and those living in developing 
countries. Indeed, in the letter, the Pope noted, ``it is 
foreseeable that once certain resources have been depleted the 
scene will be set for new wars.'' Pope Francis adds that ``the 
control of water may become a major source of conflict in this 
century.'' He notes ``the premature death of many of the poor 
in conflicts sparked by the shortage of resources.''
    I welcome the testimony today from our distinguished 
witnesses, and look forward to hearing from the Department on 
its activities and the nexus between its core mission and 
climate change issues. I also welcome the testimony from 
Professor Levy, who has assessed the National security 
implications of climate shift for the National Intelligence 
Council.
    Finally, Mr. Chairman, I know that many residents of your 
district acutely suffered in the events of September 11, 2001, 
an attack that also took the lives of 48 people from my own 
district. I take personal note in the fact that we have not had 
a similar situation since that time and since this Department 
has been created. I have no doubt that we will not, and should 
not, compete in our dedication to confront and disrupt violent 
extremism. I am confident that we share the commitment to 
mitigate each of the conditions which allow violent extremism 
to develop.
    So I support the interest my colleagues in the Majority 
have demonstrated to countering violent terrorism wherever it 
rears its head. I look forward to the committee's acting 
favorably on Ranking Member Thompson's letter to Chairman 
McCaul, requesting that the committee hold hearings to address 
threats to homeland security from domestic terrorism, such as 
the shooting at Emanuel AME Church in Charleston and several 
suspicious church fires.
    In closing, Mr. Chairman, I hope that this hearing will 
prove a fair discussion of the wide range of security risks 
posed by the climate phenomena, rather than an opportunity to 
play politics or otherwise misplace the focus of Congressional 
oversight.
    With that, Mr. Chairman, I yield back my time, and I thank 
you.
    Mr. Perry. The Chair thanks the gentlewoman and is 
privileged to have the Ranking Member of the full committee 
present. I recognize Mr. Thompson for a statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing. I appreciate the witnesses' appearing 
today.
    Today's hearing title mischaracterizes the Department of 
Homeland Security's programs that address security risks linked 
to climate change as ``climate politics'' and a ``misplaced 
focus.'' These Department programs and activities provide 
resources to address other National priorities, such as 
preparedness for and response to natural disasters.
    After living through the effects of Hurricane Katrina on 
the Gulf Coast, not to mention the recent flooding in Texas and 
Oklahoma, I find it confusing that the Majority would see a 
misplaced focus in DHS's efforts on hazard mapping and risk 
analysis to support the National Flood Insurance Program; 
producing physical measures to avoid or reduce damage 
associated with natural disasters; assessing the safety and 
security of critical infrastructure; and conducting workshops 
requested by State, local, and Tribal leaders, intended to 
build their preparation and response capabilities.
    In addition to the relevance of the Department's core 
disaster preparation and mitigation efforts as a response to 
climate change trends, an even-handed treatment of DHS's 
response to climate change would be to acknowledge assessments 
produced for the United States intelligence community over the 
past decades. These studies have provided ample evidence that 
trends in global climate act--as well as what the 2014 
Quadrennial Homeland Security Review described--as threat 
multipliers, aggravating stresses abroad that can enable 
terrorist activity and violence such as poverty, environmental 
degradation, and social tensions.
    For example, as the U.S. Institute of Peace has found, 
threats we face today from the extremist group Boko Haram first 
emerged and expanded during a period coinciding with major 
droughts in and around northern Nigeria.
    Two months ago, the Chairman of this committee stated that 
the Obama administration, particularly the Department of 
Homeland Security, is placing more emphasis on climate change 
than on countering violent extremism (CVE). Despite the 
Chairman's unwarranted criticism of DHS's valuable initiatives 
related to climate change, I too have concerns about the 
Department of Homeland Security's approach to countering 
violent extremism.
    I have asked the Chairman to hold hearings on the 
Department's approach to countering violent extremism and to 
receive testimony from the DHS Countering Violent Extremism 
Coordinator. I have also expressed the need to receive 
testimony on this topic to the Department of Homeland Security. 
However, rather than provide testimony, the Department has 
chosen to have a briefing in our committee's Classified space.
    Unfortunately, to date, this committee has not received 
testimony in an open setting from the Department on what it is 
doing with regard to CVE. Consequently, the Department has not 
adequately afforded the Members of the committee with the 
opportunity to hear what it is doing on countering violent 
extremism.
    With the surge in domestic terrorist activity, such as what 
was carried out in Charleston, South Carolina, on June 17, and 
the continuing threat from international terrorist groups, such 
as ISIL, it is important and well past time that this committee 
receives testimony from DHS, not outside entities, on CVE.
    The Department can and must manage in ways that develop 
robust, versatile, and adaptable activities and capabilities to 
address the full spectrum of threats from both man-made and 
natural disasters to the American people and the homeland. In 
doing so, DHS leaders must work to find ways for the Department 
to make the fullest contribution to a whole-of-Government 
response to climate change phenomena, employing programs and 
systems also used to respond to drug trafficking, threats to 
transportation, and threats to infrastructure generally. 
Similarly, we can find ways to counter violent extremism that 
robs American lives, whether originating at home or abroad, by 
sharpening the same kind of smart and flexible management.
    With that, Mr. Chair, I yield back.
    Mr. Perry. The Chair thanks the Ranking Member of the full 
committee.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic.
    Let me remind the witnesses that their entire written 
statement will appear in the record. I will introduce each of 
you first and then recognize you for your testimony.
    Mr. Thomas Smith is the acting assistant secretary for 
strategy, planning, analysis, and risk in DHS's Office of 
Policy. He is responsible for the development of DHS strategic 
planning and decision-making documents, including the 
Quadrennial Homeland Security Review. Mr. Smith joined DHS in 
July 2013. Prior to DHS, Mr. Smith served over 29 years as an 
engineer officer in the U.S. Army, and we thank him for his 
service to the Nation.
    Mr. Roy Wright serves as FEMA's deputy associate 
administrator for mitigation. He is responsible for FEMA's risk 
analysis and risk reduction programs. Mr. Wright joined FEMA in 
2007 and was appointed to the Senior Executive Service in 2013.
    Mr. Robert Kolasky is the deputy assistant secretary for 
the Department of Homeland Security's Office of Infrastructure 
Protection. He assists the assistant secretary in addressing 
risk to the Nation's critical infrastructure. Mr. Kolasky has 
served in numerous positions at DHS and began his Federal 
service in 2008.
    Thank you all for being here today.
    The Chair now recognizes Mr. Smith for his testimony.

 STATEMENT OF THOMAS P. SMITH, ACTING ASSISTANT SECRETARY FOR 
STRATEGY, PLANNING, ANALYSIS, AND RISK, OFFICE OF POLICY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Smith. Well, good morning. Chairman Perry, Ranking 
Member Watson Coleman, Members of the subcommittee, thank you 
for the opportunity to appear before you today to discuss our 
efforts to assess climate change as a risk within the 2014 
Quadrennial Homeland Security Review, often referred to as the 
QHSR.
    I am Thomas Smith, the acting assistant secretary for the 
Department's Office of Policy, Strategy, Plans, Analysis, and 
Risk. I joined the Department in the summer of 2013 and the 
Office of Policy last summer in 2014. Prior to that, I served a 
career in the United States Army for approximately 30 years.
    First, please allow me to put the QHSR in context. First 
and foremost, the QHSR is a validation of the five enduring 
missions of the Department: Preventing terrorism and enhancing 
security; securing and managing our borders; enforcing and 
administering our immigration laws; safeguarding and securing 
cyber space; and strengthening National preparedness and 
resilience.
    The first QHSR in 2010 articulated that homeland security 
is ultimately about managing the risk to the Nation posed by a 
wide range of threats and hazards. With the second QHSR, we 
comprehensively examined the homeland security strategic 
environment and identified strategic shifts in areas of on-
going priority, with an emphasis on the Nation's long-term 
homeland security strategy.
    With respect to climate change, the first QHSR noted that 
climate change was expected to increase the severity and 
frequency of weather-related hazards, which could in turn 
result in social and political destabilization, international 
conflict, or mass migration.
    The experts involved in the second QHSR collectively 
identified that natural disasters, pandemics, and climate 
change are key drivers of change and risk to the homeland 
security environment, and each of these drivers may indirectly 
act as threat multipliers or stressors abroad that contribute 
to challenges in poverty and security and environmental 
degradation and social tensions that can enable terrorist 
activity and violence.
    These drivers aggravate stressors that have the potential 
to cause severe consequences, examples including: More frequent 
and severe droughts and tropical storms in Mexico, Central 
America, and the Caribbean, which could increase population 
movements, both legal and illegal, toward or across the U.S. 
border; and higher temperatures that may change patterns of 
human, animal, and plant diseases, putting our workforce and 
the American public at a higher risk of illness.
    Therefore, climate, just like pandemics and natural 
disasters, is a factor, but it is certainly not the only factor 
that impacts this strategic environment, threats, and hazards 
facing our homeland security.
    In the second QHSR, a number of activities took place to 
understand the threats and hazards that affect the strategic 
environment analysis that we collectively called the Homeland 
Security Strategic Environment Assessment. This assessment 
characterized the risk, threats, current and future trends, and 
critical uncertainties in the time frame for 2015 to 2019 and 
beyond.
    DHS sought input from industry, academia, and across the 
Federal, State, local, Tribal, and territorial governments, 
other stakeholders, all to ensure we had a comprehensive 
understanding of the homeland security strategic environment to 
make sure that priorities highlighted in the Quadrennial Review 
were risk-informed.
    Under the umbrella of the Homeland Security Strategic 
Environment Assessment, the Office of Policy analyzed direct 
and indirect impacts of many risks, including climate change. 
The Department studies that analyzed and assessed trends and 
risks included the Homeland Security National Risk 
Characterization, which profiled steady-state and contingent 
homeland security risks; a current strategic environment 
report, which focused on an examination of current trends and 
drivers underpinning the homeland security strategic 
environment, spanning society, technology, the economy, the 
environment, and governance; and, finally, a future strategic 
environment report, which highlighted key uncertainties, 
influential drivers, and associated sets of strategic 
indicators relevant to the missions and operations of Homeland 
Security out to the year 2030.
    In conclusion, the best way to posture the Department 
effectively to address emerging threats and accomplish the 
Department's five enduring missions is to ensure that tough 
policy, strategy, and resource decisions are informed by 
considerations of the strategic environment with a clear sense 
of the associated risk and resource implications. It is through 
candid and thorough assessment of these risks that we will 
strengthen the security and the resilience of the United 
States.
    I look forward to addressing your questions.
    [The prepared statement of Mr. Smith follows:]
                 Prepared Statement of Thomas P. Smith
                              July 8, 2015
    Chairman Perry, Ranking Member Watson Coleman, and Members of the 
subcommittee; thank you for the opportunity to appear before you today 
to discuss our efforts to assess climate change as a risk within the 
2014 Quadrennial Homeland Security Review.
    I am Thomas Smith, acting assistant secretary for DHS's Office of 
Policy--Strategy, Plans, Analysis and Risk (SPAR). I have been with DHS 
since July of 2013 and with SPAR since the summer of 2014. Prior to 
joining the Department, I served 29 years in the United States Army, 
culminating with an assignment as the Chief of Operations, Plans, and 
Training (G-3) for the Army Corps of Engineers. The mission of SPAR is 
to develop analytically-driven, high-impact products that improve DHS 
and the homeland security enterprise's strategic direction, 
integration, and decision making; design and refine DHS processes 
necessary for the strategic management of the Quadrennial Homeland 
Security Review (QHSR) missions; and to ensure DHS strategy, planning, 
and analysis have the intended, beneficial impact on homeland security 
activities.
    First and foremost, the QHSR is a validation of the five enduring 
missions of the Department:
    1. Prevent Terrorism and Enhance Security;
    2. Secure and Manage Our Border;
    3. Enforce and Administer Our Immigration Laws;
    4. Safeguard and Secure Cyber Space; and
    5. Strengthen National Preparedness and Resilience.
    The first QHSR, published in 2010, articulated that homeland 
security is ultimately about managing the risk to the Nation posed by a 
range of threats and hazards. The second QHSR, published in 2014, 
comprehensively examines the homeland security strategic environment 
and identifies strategic shifts as well as areas of on-going priority 
and renewed emphasis for the Nation's long-term homeland security 
strategy. In developing the 2014 QHSR, the Office of Policy conducted a 
number of activities to understand threats and hazards, as well as the 
strategic environment we operate in--analyses collectively known as the 
Homeland Security Strategic Environment Assessment (HSSEA). The HSSEA 
characterizes those risks, threats, current and future trends, and 
critical uncertainties with the greatest potential to affect homeland 
security in the 2015-2019 time frame. As part of this process, DHS 
sought input from industry, academia, and Government\1\ to provide a 
greater understanding of the homeland security strategic environment 
and to ensure that the priorities highlighted in the quadrennial review 
were risk-informed. Experts involved in the HSSEA collectively 
identified natural disasters, pandemics, and climate change as key 
drivers of change to the homeland strategic environment.
---------------------------------------------------------------------------
    \1\ USG Components included in the formation of the 2nd QHSR 
included: DHS, DOJ, DOS, DOD, HHS, Treasury, USDA, ODNI, Commerce, 
Education, DOE, EPA, Housing and Urban Development, DOI, DOT, GSA, 
Labor, VA, and SBA.
---------------------------------------------------------------------------
    As articulated in the 2014 QHSR, natural disasters, pandemics, and 
climate change and associated trends continue to present a major area 
of homeland security risk, and may indirectly act as ``threat 
multipliers.'' Each of these factors aggravates stressors abroad that 
can enable terrorist activity and violence, such as poverty, food 
insecurity, environmental degradation, and social tensions. Over time, 
these drivers have the potential to cause severe consequences:
  <bullet> More frequent severe droughts and tropical storms, 
        especially in Mexico, Central America, and the Caribbean, could 
        increase population movements, both legal and illegal, toward 
        or across the U.S. border.
  <bullet> Melting sea ice in the Arctic may lead to new opportunities 
        for shipping, tourism, and legal resource exploration, but may 
        also lead to new routes for smuggling and trafficking, 
        increased risk of environmental disasters, and illicit resource 
        exploitation.
  <bullet> Higher temperatures may change patterns of human, animal, 
        and plant diseases, putting the workforce, plant and animal 
        health, and the general public at higher risk of illness.
  <bullet> Higher temperatures and more-intense storms may also damage 
        or disrupt telecommunications and power systems, creating 
        challenges for telecommunications infrastructure, emergency 
        communications, and the availability of cyber systems.
    The inclusion of climate change in the 2014 QHSR built upon 
previous findings from the first QHSR in 2010, which also recognized 
the potential disruptions caused by climate change. The first QHSR 
noted that climate change was expected to increase the severity and 
frequency of weather-related hazards, which could, in turn, result in 
social and political destabilization, international conflict, or mass 
migrations. This assessment was further validated through extensive 
engagement during the 2014 QHSR process, including outreach across the 
Department and with interagency stakeholders; State, local, Tribal, and 
territorial governments; and our private-sector partners. DHS also 
employed IdeaScale and an on-line ``Community of Practice'' to solicit 
on-line engagement from homeland security practitioners.
    Under the umbrella of the HSSEA, the Office of Policy analyzed the 
direct and indirect impacts of climate change. The Department's 
foundational research studies that analyzed and assessed current trends 
and risk included:
Homeland Security National Risk Characterization
    The Homeland Security National Risk Characterization (HSNRC) is a 
profile of steady-state and contingent homeland security risks which 
considered and compared a variety of threats and hazards, including 
those stemming from natural disasters, adversarial threats, and 
accidental technological or human-caused hazards. The Risk 
Characterization identified those risks that have the potential to 
significantly impact the Nation's homeland security. The HSNRC 
identified the direct and indirect effects of climate change as a 
National risk. These risks included hurricanes, tornadoes, wildfires, 
and floods.
    A significant amount of outreach was involved in developing the 
HSNRC. Elements such as data sources, methodology, and/or key results 
were shared with senior leadership and members of technical staffs from 
other governments, including the United Kingdom, Canada, Mexico, 
Australia, and New Zealand, who also conduct National risk assessments. 
The methodology was also shared at professional society conferences 
such as the Association of Federal Enterprise Risk Management Annual 
Summit, the Institute for Operations Research and the Management 
Sciences Practitioner Conference, and the Society for Risk Analysis 
Annual Conference.
Current Strategic Environment 2012
    The Current Strategic Environment (CSE) report provided a focused 
examination of current trends and drivers underpinning the homeland 
security strategic environment. It outlined important current trends 
and key statistics within 16 homeland security strategic drivers that 
span society, technology, the economy, the environment, and governance. 
The CSE is the product of months of focused research and analysis of 
the current trends and key statistics. The CSE noted that while it is 
not appropriate to attribute any single extreme weather event to 
climate change, climate change can affect the likelihood of certain 
types of extreme events.
    As part of analyzing the CSE, team members reached out to subject-
matter experts from outside the Department (including think tanks and 
universities) in order to find new trends and verify that identified 
trends were generally perceived to be correct.
Future Strategic Environment 2013
    The Future Strategic Environment (FSE) report highlighted key 
uncertainties, influential drivers, and associated sets of strategic 
indicators relevant to the missions and operations of homeland security 
out to the year 2030. The key insights of the FSE stem from a 
structured process of data collection and analysis that leveraged 
structured discussion and decision working groups, and the qualitative 
judgement of a diverse body of participants and subject-matter experts, 
including over 100 participants from across DHS, the intelligence 
community, and the broader U.S. Government. The FSE concluded that the 
effects of climate change were one of the top six areas of key 
uncertainties and challenges, and was particularly resistant to 
influence by the homeland security enterprise efforts.
    FSE team members discussed elements of the future strategic 
environment with Federal partners in a variety of working meetings with 
the Departments of Agriculture, Defense, Health and Human Services, 
State, Treasury, Veterans Affairs, and the Environmental Protection 
Agency. The results were also raised at the U.S. Department of Homeland 
Security's University-Based Centers of Excellence Directors' Meeting 
and the National Center for Risk and Economic Analysis of Terrorism 
Events 10th-Year Anniversary Celebration.
    In addition to our own risk assessments and analysis efforts, DHS 
drew upon previous work conducted under Executive Order (E.O.) 13514, 
Federal Leadership in Environmental, Energy, and Economic Performance, 
and follow-on work, including: the Climate Change Adaptation Report, 
October 2010; the Climate Change Adaptation Roadmap, June 2012; and the 
DHS Climate Action Plan, September 2013. The work performed during the 
QHSR utilized and included work from these previous efforts to 
understand the impact of climate change on Departmental missions. The 
2012 DHS Climate Change Adaptation Roadmap fulfilled the Executive 
Order 13514 requirement for all Federal agencies to reinforce and 
comply with the U.S. Government's efforts to develop a National climate 
change adaptation strategy and to meet Federal Requirements of reducing 
greenhouse gas emissions to integrate climate change adaptation into 
both the culture and operations of the Department.
    In conclusion, the best way to posture the Department to 
effectively address emerging threats and accomplish the Department's 
five enduring missions is to ensure that tough policy, strategy, and 
resource decisions are informed by a consideration of the strategic 
environment, with a clear sense of the associated risk and resource 
implications. To disregard natural disasters, pandemics, and climate 
change would be ignoring how these factors may indirectly act as 
``threat multipliers''; and neglect our shared responsibility to 
strategically manage risk and build a more prepared, resilient Nation. 
It is through the thorough and candid assessment of these risks that 
that we will strengthen the security and resilience of the United 
States.
    I look forward to addressing your questions.

    Mr. Perry. The Chair thanks you.
    The Chair now recognizes Mr. Wright for his testimony.

   STATEMENT OF ROY WRIGHT, DEPUTY ASSOCIATE ADMINISTRATOR, 
   FEDERAL INSURANCE AND MITIGATION ADMINISTRATION, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Wright. Good morning, Chairman Perry, Ranking Members 
Watson Coleman and Mr. Thompson, and other Members of the 
committee. I appreciate the opportunity to appear before you 
today.
    My name is Roy Wright, and I am FEMA's deputy associate 
administrator for insurance and mitigation. So I lead the 
Federal Emergency Management Agency's mission responsibility 
over hazard mitigation planning, mitigation grants, the 
National Flood Insurance Program, and our work to help build 
community resilience across the Nation.
    FEMA has an all-hazards mission, supporting our citizens 
and first responders to ensure as a Nation we continue to 
build, sustain, and improve our capabilities to prepare for, 
protect against, respond to, recover from, and mitigate all 
hazards. We are a consequence management agency.
    Within the mitigation mission space, we are particularly 
attuned to understanding and managing risks, both current and 
future. These include a wide array of changes: Shifting 
demographics, aging infrastructure, and the prospect for 
increasing frequency and severity of extreme weather events.
    Climate change is just one of many future risks but one 
that could significantly alter the types and magnitudes of 
hazards impacting communities and the emergency management 
professionals that serve them.
    FEMA's attention to these evolving risks and their impact 
on the future of communities has a long history. In 1988, 
Congress passed the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act. In its original form and through 
amendment in 1993, Congress instructed FEMA to address future 
risks and help ensure Federal taxpayer dollars are used 
responsibly and, in doing so, will substantially reduce the 
risk of future damage.
    Through the Disaster Mitigation Act of 2000, which amended 
Stafford, Congress requires actions by communities in such a 
way that they plan for and address future risks.
    In the regulations promulgated in 2002, State, local, and 
Tribal mitigation plans are now required and they need to 
include, ``the probability of future hazard events'' occurring 
in a given jurisdiction. The plans must also contain a 
mitigation strategy that speaks to reducing or avoiding the 
long-term vulnerabilities that the hazards pose to the future 
loss of life or property.
    With more than $260 billion worth of flood-related damage 
across the Nation since 1980, our attention to understanding 
our risks and doing something to reduce them must be 
unwavering.
    Two specific ways I want to highlight this morning that 
FEMA is supporting this work:
    First, building on our long-standing mission in the 
specific rebuilding experiences of Sandy, FEMA is supporting 
the policy development of Executive Order 13690 that 
establishes a Federal flood risk management standard. This new 
resilience standard will help ensure taxpayer dollars are well-
spent on infrastructure that can better withstand the impacts 
of flooding and help communities bounce back faster after 
disasters.
    Simply put, when investing Federal dollars to build or 
rebuild infrastructure across the country, we should not spend 
those dollars more than once on the same project. 
Unfortunately, we are too often in the position of paying for 
it twice.
    Second, FEMA released an update to our State Mitigation 
Plan Review Guidance earlier this year. This guide updates 
FEMA's policy that was last published in 2008 on planning for 
natural hazards.
    State mitigation plans, which are updated every 5 years, 
are one of the conditions of eligibility for certain FEMA 
assistance, such as the Permanent Work Under Public Assistance 
and Hazard Mitigation Assistance project grants. States must 
provide an overview of all natural hazards that affect the 
State. States are then asked to consider the probability of 
future hazard events, including changing future conditions, 
development patterns, and population demographics.
    This policy clarifies that the probability of future hazard 
events must include the effects of long-term changes in weather 
patterns and climate on the identified hazards. Further, the 
policy encourages States to take a holistic approach and 
include not only emergency management but also the sectors of 
economic development, land use, housing, health and social 
services, infrastructure, and natural and cultural resources 
into those plans.
    Addressing future risks regardless of their cause is key to 
FEMA's mission. We bring data to the table and work with 
deference to State, local, and Tribal needs and priorities. By 
addressing future risks, State, local, Tribal, and territorial 
governments are best prepared for future disasters and are able 
to bounce back faster. That kind of economic vitality helps 
sustain and secure our Nation.
    With that, I look forward to your questions.
    [The prepared statement of Mr. Wright follows:]
                    Prepared Statement of Roy Wright
                              July 8, 2015
                              introduction
    Chairman Perry, Ranking Member Watson Coleman, and Members of the 
subcommittee, I appreciate the opportunity to appear before you today. 
My name is Roy Wright. I am the deputy associate administrator for 
insurance and mitigation at the Federal Emergency Management Agency 
(FEMA).
    In my capacity, I oversee FEMA's work in hazard mitigation planning 
and grants, the National Flood Insurance Program (NFIP), and activities 
to help build community resilience across the Nation. These areas cover 
a vast mission space and an array of programs important to securing the 
Nation against the many threats we face.
    FEMA's mission is to support our citizens and first responders to 
ensure we, as a Nation, continue to build, sustain, and improve our 
capability to prepare for, protect against, respond to, recover from, 
and mitigate all hazards. To continue to accomplish our mission in the 
years to come, FEMA is working collaboratively with stakeholders across 
the whole community to ensure the United States is preparing and 
planning for both current and future risks. These future risks include 
a wide array of changes, including shifting demographics, aging 
infrastructure, and the possibility for increases in number and 
severity of extreme weather events.
    It is important to note that climate change is just one of many 
future risks we plan for, but one that could significantly alter the 
types and magnitudes of hazards impacting communities and the emergency 
management professionals serving them. Accordingly, consistent with 
FEMA's focus on enabling disaster risk reduction Nationally, we are 
supporting State, local, and Tribal governments with efforts to prepare 
for the impacts of climate change through adaptation, which means 
planning for the changes that are occurring and expected to occur.
                            the stafford act
    The Stafford Act sets the statutory framework from which we manage 
our role in mitigation and address future risk. The Stafford Act 
stipulates that post-disaster mitigation activities must 
``substantially reduce the risk of future damage.'' This law mandates 
that FEMA address future risk and helps ensure Federal taxpayer dollars 
are used responsibly given the possibility of changing conditions.
    Additionally, the Stafford Act requires actions by communities to 
address future risk by requiring State, local, and Tribal governments 
to develop plans for hazards, risks, and vulnerabilities in their 
respective jurisdictions. State, local, and Tribal mitigation plans are 
required to include the ``probability of future hazard events'' 
occurring in a given jurisdiction. Also, the plans must contain a 
mitigation strategy that speaks to reducing or avoiding the long-term 
vulnerabilities the hazards pose. Without this future look, a community 
cannot adequately prepare to mitigate against future loss of life and 
property.
    The Stafford Act also requires future risk be considered when 
addressing minimum standards for public and private structures. 
Recipients of Federal assistance must meet a certain threshold in terms 
of the standards and codes being employed during construction. Further, 
FEMA is authorized to provide funding to applicants for eligible, 
feasible, and cost-effective activities that have the purpose of 
reducing or eliminating risks to life and property from flood hazards 
and their effects in accordance with Section 203, Pre-disaster Hazard 
Mitigation.
                   fema's work to reduce future risk
    In accordance with our statutory requirements, FEMA is working 
closely with the emergency management community to adapt to a wide 
array of changing risks in order to build greater resilience in 
communities across the Nation.
    The DHS Climate Action Plan, which carries out direction in the 
President's Executive Order, Preparing the United States for the 
Impacts of Climate Change, includes a focus on ensuring resilience to 
disasters. FEMA, along with every department or agency with relevant 
authorities, is directed to provide tools and data, facilitate climate 
resilient investments, and build climate adaptation knowledge and 
capacity Nation-wide.
    Recently, we have also taken a series of steps to address the 
future risk of flooding. This is vital because we know that floods 
damage our public health and safety, as well as our economic 
prosperity. In fact, between 1980 and 2013, the United States suffered 
more than $260 billion in flood-related damages.
    Earlier this year, President Obama signed Executive Order 13690, 
Establishing a Federal Flood Risk Management Standard and a Process for 
Further Soliciting and Considering Stakeholder Input, as a flexible 
framework to increase resilience against flooding and help preserve the 
natural value of floodplains. This new resilience standard will help 
ensure taxpayer dollars are well-spent on infrastructure that can 
better withstand the impacts of flooding and help communities bounce 
back faster from disasters. Since flooding is the most costly and 
commonly occurring hazard in the United States, the standard will 
protect both public and Federal investments.
    Additionally, following Hurricane Sandy, FEMA worked with its 
Federal partners through the Hurricane Sandy Rebuilding Task Force to 
ensure that all Federally-funded rebuilding projects undertaken as part 
of the recovery from Sandy meet a single Government-wide flood risk 
reduction standard that takes into account the increased risk the 
region is facing from extreme weather events, sea level rise, and other 
impacts of climate change.
    FEMA is also working with our partners in Federal, State, local, 
and Tribal government to continue and expand our work in the area of 
mitigation by applying our existing statutes and authorities to 
incorporate future risk into on-going plans, policies, and procedures.
                   state mitigation plan review guide
    In early March 2015, FEMA announced the release of the State 
Mitigation Plan Review Guide (``Guide''). Starting March 6, 2016, the 
Guide will be FEMA's official policy on the natural hazard mitigation 
planning requirements from Title 44 Code of Federal Regulations Part 
201, and Federal regulations for State hazard mitigation plans, 
inclusive of the District of Columbia and five U.S. territories. The 
guide supports State, Tribal, and local government mitigation planning 
to identify risks and vulnerabilities associated with natural disasters 
and establish a long-term strategy for protecting people and property 
in future hazards events. State mitigation plans are one of the 
conditions of eligibility for certain FEMA assistance, such as Public 
Assistance Categories C-G and Hazard Mitigation Assistance mitigation 
project grants. States are required to update the State mitigation plan 
every 5 years.
    This guide asks States to consider the probability of future hazard 
events, including changing future conditions, development patterns, and 
population demographics. The Guide clarifies that the probability of 
future hazard events must include considerations of changing future 
conditions, including the effects of long-term changes in weather 
patterns and climate on the identified hazards. States must continue to 
provide an overview of all natural hazards that can affect the State, 
using maps where appropriate.
    To better reduce risk and enhance resilience, the Guide encourages 
States to take a holistic approach and include not only emergency 
management, but also the sectors of economic development, land use and 
development, housing, health and social services, infrastructure, and 
natural and cultural resources in their planning process and mitigation 
program, where practicable. These hazard mitigation plans must be 
adopted by the highest elected official or designee in the State, in 
order to ensure to ensure a holistic, whole-of-community approach.
                               conclusion
    Addressing future risks, such as those posed by extreme weather 
events regardless of their cause, is key to our mission. Wherever 
possible, we bring data to bear and work with deference to State, 
local, and Tribal needs and priorities. By addressing future risks, 
State, local, Tribal, and territorial governments are best prepared for 
future extreme weather events and are able to bounce back faster at the 
individual and community level.
    Thank you.

    Mr. Perry. The Chair thanks Mr. Wright.
    The Chair now recognizes Mr. Kolasky for his testimony.

   STATEMENT OF ROBERT KOLASKY, DEPUTY ASSISTANT SECRETARY, 
  INFRASTRUCTURE PROTECTION, NATIONAL PROTECTION AND PROGRAMS 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kolasky. Thank you, Chairman Perry, Ranking Member 
Watson Coleman, Mr. Thompson, and distinguished Members of the 
subcommittee. I appreciate the opportunity to appear before you 
to discuss the National Protection and Program Directorate's 
efforts to secure the Nation's critical infrastructure and make 
it more resilient against all risk.
    Risks to our critical infrastructure are wide-ranging, 
including acts of terrorism, other potential attacks by 
extremists, cyber threats, extreme weather, as well as impacts 
of aging or failing infrastructure. The Department of Homeland 
Security supports the preparedness efforts of critical 
infrastructure owners and operators to address these risks, 
with a particular focus on sharing information relating to 
securing infrastructure from man-made attacks.
    NPPD is responsible for leading and coordinating the 
National effort to protect critical infrastructure from all 
hazards by managing risk and enhancing resilience through 
collaboration. To achieve this end, NPPD works with the 
Nation's owners and operators of critical infrastructure to 
address the risks they are most concerned about. This includes 
climate change.
    Critical infrastructure is subject to a wide variety of 
natural phenomena and is typically designed to withstand the 
weather-related stressors of a particular locality, but shifts 
in climate patterns increase the range and intensity of 
potential risks to our critical infrastructure.
    Most infrastructure being built today is expected to 
operate for 50 years or longer. Therefore, it is important to 
understand how climate change might affect these investments 
now and in the coming decades so that what we build today will 
withstand the hazards of the future. This requires forward 
planning that considers the risks and uncertainties associated 
with climate change, rather than reliance on models solely 
based on the past. It also means building awareness of how 
depletion or alteration of natural resources may impact 
infrastructure operations.
    Over the past few years, we have seen how extreme weather 
can compromise critical infrastructure, including energy, 
transportation, water, and communications networks, often for 
an extended period of time. In 2012, Superstorm Sandy flooded 
shorelines and subways, resulting in billions of dollars of 
damage, leaving tens of thousands of individuals without 
transportation or power, and, most significantly, resulting in 
loss of life.
    Storms like Sandy and Hurricane Katrina remain a primary 
concern for significant regions of the country. So, too, 
however, do more localized incidents, such as the derecho we 
faced here in the mid-Atlantic in 2012, tornados in the 
Oklahoma region, and, more recently, the significant riverine 
flooding in the State of Texas. The impact of drought 
conditions in California and the rest of the Southwest is 
currently stressing the ability of our infrastructure to 
operate and threatening the water supply and, ultimately, the 
related electricity and fuel supply.
    Unfortunately, we do not anticipate this trend abating. The 
analysis of infrastructure exposure to extreme weather events 
we have conducted shows that rising sea levels, more severe 
storms, extreme and prolonged drought conditions, and severe 
flooding combine to threaten the infrastructure that provides 
essential services to the American public. On-going and future 
changes to the climate have the potential to compound those 
risks and have a major impact on infrastructure operations.
    To address these potential changes, the Nation must take a 
long-term perspective. While it is always wise to consider 
future conditions, it is even more important for critical 
infrastructure. Infrastructure built now will be expected to 
operate under future stressor conditions, whatever they may be. 
As a result, it is a prudent investment to incorporate 
resilience into asset and system design, promote mitigation in 
existing infrastructure, rather than rebuild or redesign 
infrastructure after incidents occur.
    It isn't just us who believe this. The Nation's military 
and business leaders are on record recognizing the challenge of 
climate change and the importance of acting to improve our 
Nation's infrastructure resilience.
    We take such advice seriously at DHS and within NPPD, and 
we are working in a measured manner, yet with urgency, to 
engage communities to better understand locality-based risk to 
critical infrastructure and to encourage smart adaptation 
activities. By leveraging our capabilities, NPPD is effectively 
using its skills and resources to build the Nation's resilience 
to extreme weather. Specifically, let me highlight two 
community-level engagements.
    In Charleston, South Carolina, we are partnering with the 
newly-formed Charleston Resilience Network to help the region 
address chronic and long-term hazards. Rather than waiting for 
the next flood to occur, Charleston is proactively building a 
resilient community. It is improving their storm-water 
management system, and now, based on the work we have performed 
in the area, they have launched a public-private partnership to 
address chronic and episodic hazards.
    In the Casco Bay region of Maine, NPPD recently conducted a 
regional resilience assessment program focused on the impacts 
of climate change and other extreme weather. Through this work, 
we identified a number of vulnerabilities and core spending 
opportunities for proactive mitigation. With many of its 
transportation, electrical, and drinking-water assets 
vulnerable to sea-level rise, changing water temperature, and 
storm surge, the safety, economic prosperity, and quality of 
life of Maine residents could ultimately be at risk.
    Our partners aren't debating the science, nor are they 
waiting to see what happens. Instead, they are planning for an 
uncertain future.
    At DHS, waking up every day with the job to ensure the 
security of the American people and the availability of 
electricity, water, communications, transportation, and 
financial networks, we must consider all hazards that could 
threaten our communities and ways of life.
    Working with the private sector and community leaders to 
plan for the impacts of climate change is essential. Such 
prudent long-term planning in the face of uncertainty is the 
cornerstone of smart National and homeland security activities, 
and we must be a Department that addresses the risk of today 
while also preparing the country for the risks of the future.
    In doing so, however, we remain mindful of the more 
immediate challenges facing the Nation in the form of 
extremists dedicated to attempting to commit acts of terrorism 
to the Nation's critical infrastructure, as well as cyber 
attacks. That is and will remain our priority and our focus.
    Thank you for your time this morning. I look forward to any 
questions.
    [The prepared statement of Mr. Kolasky follows:]
                  Prepared Statement of Robert Kolasky
                              July 8, 2015
    Thank you, Chairman Perry, Ranking Member Watson Coleman, and other 
distinguished Members of the subcommittee. I appreciate the opportunity 
to appear before you to discuss the National Protection and Programs 
Directorate's (NPPD's) efforts to secure the Nation's critical 
infrastructure and make it more resilient against all risks.
    Our daily life, economic vitality, and National security depend on 
critical infrastructure. Infrastructure provides essential services; it 
is the engine of commerce, the basis of trade, the key to functioning 
communities, but it is easily taken for granted. Often, it is only when 
an incident occurs--leading to a disruption in services we have come to 
expect--that most peoples' attention is drawn to the importance of 
infrastructure itself.
    Threats to our critical infrastructure are wide-ranging--including 
acts of terrorism, cyber threats, aging and failing infrastructure 
components, and climate change. The Department of Homeland Security 
supports the preparedness efforts of owners and operators to prevent, 
protect against, mitigate, respond to, and recover from incidents 
affecting critical infrastructure. NPPD is responsible for leading and 
coordinating the National effort to protect critical infrastructure 
from all hazards by managing risk and enhancing resilience through 
collaboration with the critical infrastructure community. To achieve 
this end, NPPD works with the Nation's owners and operators of critical 
infrastructure as well as the communities that rely on that 
infrastructure to address all risks as part of our all-hazards approach 
to building critical infrastructure security and resilience.
             climate change threatens our nation's security
    According to the U.S. Global Change Research Program's Third 
National Climate Assessment released last year, the United States will 
experience an increase in frequency and intensity of hurricanes, 
massive flooding, excessively high temperatures, wildfires, severe 
downpours, severe droughts, storm surge, and sea-level rise throughout 
the 21st Century. Extreme weather strains our resources, serves as a 
``threat multiplier'' that aggravates stressors both at home and 
abroad, and destabilizes the lifeline sectors on which we rely. Higher 
temperatures and more intense storms can cause damage or disruptions 
that result in cascading effects across our communities.
    Critical infrastructure is subject to a wide variety of natural 
phenomena, and is typically designed to withstand the weather-related 
stressors of a particular locality. But shifts in climate patterns 
increase the range and intensity of potential risks to our critical 
infrastructure. Most infrastructure being built today is expected to 
operate for 50 years or longer. Therefore, it is important to 
understand how climate change might affect these investments now and in 
the coming decades so that what we build today will withstand the 
hazards of the future. This requires forward planning that considers 
the risks and uncertainties associated with climate change, rather than 
reliance on models solely based on the past. It also means building 
awareness of how depletion or alteration of natural resources may 
impact infrastructure operations.
    Over the past few years, we have seen how extreme weather can 
compromise critical infrastructure, often for extended periods of time. 
In 2012, Hurricane Sandy flooded shorelines and subways, resulting in 
billions of dollars of damage, leaving tens of thousands of individuals 
without transportation or power, and most significantly, resulting in 
loss of life. Storms like Sandy and Hurricane Katrina remain a primary 
concern for significant regions of the country. So too, however, do 
more localized incidents such as the derecho we faced in the Mid-
Atlantic in 2012; tornadoes in the Oklahoma region; and, more recently, 
the significant riverine flooding in the State of Texas. The impact of 
drought conditions in California and the rest of the Southwest is 
currently stressing the ability of our infrastructure to operate and 
threatening the water supply and, ultimately, the related electricity 
and fuel supply.
    Unfortunately, we do not anticipate this trend abating. The 
analysis of infrastructure exposure to extreme weather events we have 
conducted shows that rising sea levels, more severe storms, extreme and 
prolonged drought conditions, and severe flooding combine to threaten 
the infrastructure that provides essential services to the American 
public. On-going and future changes to the climate have the potential 
to compound these risks and have a major impact on infrastructure 
operations.
    There are a number of examples of the risk of delays, disruptions, 
damage, and failure that the projected impacts of climate change pose 
to our critical infrastructure systems. Many of the Nation's busiest 
air and sea ports are located in low-lying coastal areas, making them 
particularly vulnerable to flooding as a result of rising sea levels. 
In the tri-state area of New York, New Jersey, and Connecticut, many 
transportation infrastructure facilities (including Newark and 
LaGuardia airports) lie within the range of current and projected 50-
year coastal storm surges. In the Gulf Coast--home to several of the 
largest ports in the United States--the combination of relative sea 
level rise and more intense hurricanes and tropical storms could lead 
to significant disruptions and damage.\1\
---------------------------------------------------------------------------
    \1\ USGCRP (2009). Global Climate Change Impacts in the United 
States. Karl, T.R., J.M. Melillo, and T.C. Peterson (eds.). United 
States Global Change Research Program. Cambridge University Press, New 
York, NY, USA.
---------------------------------------------------------------------------
    In addition, the increasingly interconnected nature of our critical 
infrastructure creates new vulnerabilities and opportunities for 
disruption across supply chains. Three years ago, high temperatures and 
high demand tripped a transformer and transmission line in Yuma, 
Arizona, starting a chain of events that shut down the San Onofre 
nuclear power plant, leading to a large-scale power outage across the 
entire San Diego distribution system. Efforts have been made to address 
the vulnerabilities that led to such outages, including enabling 
automated switching and distribution SCADA (supervisory control and 
data acquisition) systems to provide utilities with enhanced 
capabilities for remote monitoring, and the ability to proactively 
address outages. However, additional progress is needed to secure our 
interrelated systems in the face of varied threats.\2\
---------------------------------------------------------------------------
    \2\ Technical Report to the U.S. Department of Energy in Support of 
the National Climate Assessment (February 2012). Climate Change and 
Infrastructure, Urban Systems, and Vulnerabilities. Oak Ridge National 
Laboratory.
---------------------------------------------------------------------------
    These examples reinforce that the Nation must take a long-term 
perspective and account not only for risks based on previous 
experiences, but also consider evolving threats and hazards, including 
those caused by extreme weather that are linked to change in climate. 
Intergovernmental agencies and the scientific community, including the 
Intergovernmental Panel on Climate Change and the U.S. Global Change 
Research Program, warn that extreme weather may occur with increasing 
frequency. While it is always wise to consider future conditions, it is 
even more important for critical infrastructure. Infrastructure built 
now will be expected to operate under future stressor conditions, 
whatever they may be. As a result, it is a prudent investment to 
incorporate resilience into asset and system design and promote 
mitigation in existing infrastructure, rather than rebuild or redesign 
infrastructure after incidents occur.
  dhs actions to ensure the threat of climate change is appropriately 
                               addressed
    The majority of the Nation's infrastructure is owned and operated 
by the private sector. NPPD works with owners and operators primarily 
on a voluntary basis to understand man-made threats and natural 
hazards, to share information on these threats and hazards, and promote 
best practices, training, and tools to help mitigate risks. By 
leveraging our core capabilities, such as information and data sharing, 
capacity development, vulnerability assessments, and situational 
awareness, NPPD is effectively using its skills and resources to build 
the Nation's resilience to extreme weather. Specifically, let me 
highlight two community-level engagements:
  <bullet> In Charleston, SC, we are partnering with the newly-formed 
        Charleston Resilience Network to help the region address 
        chronic and long-term hazards. We know from our work that the 
        Charleston downtown area floods during periods of heavy rain 
        and/or high tide. Within 2 hours of high tide, much of the 
        storm water infrastructure fills with seawater, inhibiting 
        drainage of storm water. When high tide and a storm converge, 
        downtown Charleston begins to flood. Couple that with the fact 
        that the average seasonal rainfall is projected to increase 1 
        to 1.5 inches over the next 35 years, and the continued 
        prevalence of heavy, 24-hour rainfall events in the region, and 
        we can predict with fair certainty that Charleston will 
        experience chronic flooding. Rather than waiting for the next 
        flood to occur, Charleston is proactively building a resilient 
        community. They are improving their storm water management 
        systems, and now, based on the work we performed in the area, 
        they have launched a public-private partnership to address 
        chronic and episodic hazards.
  <bullet> In the Casco Bay region of Maine, NPPD recently conducted a 
        Regional Resilience Assessment Program (RRAP) focused on 
        climate change. This year-long program which included 
        workshops, assessments, open-source research, and subject-
        matter expertise interviews with Federal, State, and local 
        officials as well as critical infrastructure operators helped 
        the community identify areas of risk associated with the 
        impacts of climate change. The assessment culminated in a 
        table-top exercise, the first ever focused on the consequences 
        of climate change. Through this exercise, Casco Bay residents 
        identified a number of vulnerabilities and corresponding 
        opportunities for proactive mitigation. With many of its 
        transportation, electrical, and drinking water assets 
        vulnerable to sea-level rise, change in water temperature, and 
        storm surge, the safety, economic prosperity and quality of 
        life of Maine residents could ultimately be at stake. As a 
        result of this exercise, the region is exploring ways to 
        proactively address these challenges.
    Our partners aren't debating the science, nor are they waiting to 
see what happens; instead they are planning for an uncertain future. 
They are establishing their governance structures, actively engaging 
the private sector to jointly fund initiatives, and taking action to 
build resilience into their infrastructure, their planning, and their 
community. We are doing what we can to support these initiatives, while 
recognizing that this is just a small component of our overall mission.
               balancing risks to critical infrastructure
    The threats associated with climate change are just one of the many 
risks facing our National infrastructure. While we are here today to 
discuss the effects of climate change, we continue our efforts to 
secure all areas of our critical infrastructure from the many threats 
that face them. From preventing terrorism to safeguarding and securing 
cyberspace, reducing the risks to critical infrastructure must be a 
balance. Our focus remains on working with owners and operators of 
critical infrastructure to protect the Nation's infrastructure from all 
hazards.
    Waking up every day with the job to ensure the security of the 
American people, and the availability of electricity, water, 
communications, transportation, and financial networks, we must 
consider all hazards that could threaten our communities and ways of 
life. Working with the private sector and community leaders to plan for 
the impacts of climate change is essential. Long-term planning in the 
face of uncertainty is the cornerstone of risk management and we must 
address the risks of today while also preparing the country for the 
risks of the future.
    Thank you for your time this morning. I look forward to any 
questions.

    Mr. Perry. The Chair thanks Mr. Kolasky.
    The Chair now recognizes himself for 5 minutes for 
questioning and some other things.
    I would like to start out with just some clarifications 
here based on some of the statements and testimony.
    The question isn't whether the Department of Homeland 
Security should be prepared for the consequences of climate 
change, whatever causes it, or weather. We understand and 
recognize and acknowledge that, that the Department needs to be 
prepared to deal with that on behalf of the American people.
    The question really is: Is it a core mission of the 
Department when there are so many other agencies that do this 
as their mission? We wonder, instead of the Department of 
Homeland Security spending taxpayer dollars and focus on this 
issue, shouldn't they just go to NOAA, shouldn't they just go 
to NASA, shouldn't they just go to one of the myriad other 
agencies and say, ``Hey, have you got this information, and, if 
you don't, what would it take to get it?'' as opposed to, 
``Let's just come up with it ourselves.''
    I have run a business. I am not an accountant, but I use an 
accountant. I mean, I could do my own books, I suppose, but it 
was more efficient for me to employ someone that that was their 
vocation, that was their expertise. So that is really the 
question.
    Then, finally, I just find it curious that the horrific 
events that happened in South Carolina recently are being 
discussed as terrorism; meanwhile, the horrific events that 
occurred in Moore, Oklahoma, are somehow workplace violence. I 
find that interesting and curious in this context.
    But I digress, so let me move on. I will start with Mr. 
Smith.
    The Department has clearly been tracking its climate change 
adaptation efforts closely enough to issue a number of detailed 
reports and action plans on that over the past 3 years. Do you 
know how many full-time employees work on climate-change-
related issues and DHS's strategic planning efforts, how many 
individuals at DHS?
    Mr. Smith. So, Mr. Chairman, thank you.
    Over the past 4 years, to produce those documents, I have 
an estimate in terms of dollar values, which could be converted 
by personnel----
    Mr. Perry. Full-time equivalent or something like that?
    Mr. Smith. Yes. It is a very limited number in the Office 
of Policy. Probably around--well, in the range of $750,000 over 
the past 4 years to produce those reports. So, at different 
times, 2 to 4, using some of their capability as staff working 
on these climate adaptation reports.
    Mr. Perry. So do you know, in contrast, how many staff 
members have been committed to CVE efforts or ISIS or foreign-
fighter travel?
    Mr. Smith. So I wouldn't be able to put that, Mr. Chairman, 
in a specific number.
    I would stop, though, at that point and just comment that, 
you know, as you described, we validate the missions of the 
Department, the cornerstone of preventing terrorism. This 
countering violent extremism, it cross-cuts through different 
parts of our operations. So it is not as easy to put a specific 
dollar value on the countering-violent-extremism number of 
personnel----
    Mr. Perry. Okay. So do you know what the ask was, what the 
budgetary ask was, for climate-change-related research, et 
cetera, last year, last budget cycle, versus CVE? Do you know 
that?
    Mr. Smith. I----
    Mr. Perry. If you don't know that, do you know the current 
ask for those two items?
    Mr. Smith. I don't have the dollar figures specifically for 
those items.
    Mr. Perry. So one of the reasons we have these questions 
is, per my records, $16 million for climate change directly 
asked for by the Department, zero for countering violent 
extremism.
    So when we are looking for transparency and are wondering--
some folks are wondering why are we having this hearing, the 
American people want to know where their money is going and how 
it is being prioritized. When nothing is asked for for 
countering violent extremism but $16 million is asked for 
climate change, when we have a myriad of other agencies that do 
it, we wonder, is this the best use of our money? I think that 
is a reasonable question.
    That having been said, let me ask you this. Why does the 
Department have numerous--I think 11--climate change documents 
but not one roadmap or other type of policy document for 
preventing foreign-fighter travel?
    Mr. Smith. Mr. Chairman, I think I would agree with parts 
of your opening statement which describe the significance of 
the threats we face. I mean, that is why the Secretary often 
tells us we have the most privileged job in Government. The men 
and women I work with and around work towards securing a safe 
and secure homeland, particularly against terrorism.
    As to a document, it is foundational in the QHSR that the 
cornerstone mission is terrorism and identifies the 
significance of that. It works through----
    Mr. Perry. So, with all due respect, Mr. Smith, I want to 
abide by my time for the other Members on both sides. Just look 
at it from my perspective. This is what the Department has 
produced on climate change. You can see it is volumes. This is 
countering violent extremism.
    Now, look, I didn't make this stuff up. This isn't Perry 
stuff. This is the Department stuff. It would lead one to 
believe that this is the priority, climate change is the 
priority; violent extremism is not the priority. I mean, you 
tell us, if you can, in the upcoming questioning how we are 
wrong.
    With that, I will yield my time. At this point, I am going 
to turn to the Ranking Member, the gentlelady from New Jersey, 
Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you very much for your testimony, gentlemen.
    I guess I am a little bit confused, because I am not 
certain that FEMA is doing anything different than it should be 
doing and would have been doing and had been doing and is now 
doing as a result of learning from things such as Hurricane 
Katrina and Hurricane Sandy.
    Mr. Wright. That is correct, ma'am. We have had a long-
standing responsibility to look at these risks, both the ones 
that exist today and into the future.
    Mrs. Watson Coleman. Right.
    Mr. Wright. This is consistent with our mission over the 
last 30 years.
    Mrs. Watson Coleman. So the $16 million that my Chairman 
refers to, I understand, really is in Mr. Kolasky's wheelhouse? 
Is that infrastructure assessments, critical infrastructure 
assessments, and workshops and information sharing and 
preparedness activities?
    Mr. Kolasky. My understanding of the $16 million he refers 
to is $10 million is in NPPD's budget and----
    Mrs. Watson Coleman. Is what?
    Mr. Kolasky. Six million dollars is in FEMA's budget. Ten 
million dollars in NPPD's budget and $6 million in FEMA's 
budget.
    Mrs. Watson Coleman. Okay. All right. Out of a total 
Department budget of?
    Mr. Kolasky. Forty billion dollars.
    Mrs. Watson Coleman. Forty billion dollars.
    Sixty billion dollars? Okay.
    First of all, it concerns me that we are having this 
particular hearing and that we are spending our taxpayer money 
on trying to create some sort of political theater around this 
issue of your role in keeping our homeland safe, on any level, 
with regard to any issue.
    Certainly, we know by our experiences, our observations, 
that communities have been devastated, that populations have 
been shifted, that vulnerabilities have been exacerbated with 
communities as a result of extreme weather patterns, flooding, 
rising sea levels, drought, too much or too little. Certainly, 
we have seen that some of these conditions have created fertile 
ground for people to take advantage of people who are most 
vulnerable.
    So that kind-of says to me that we are where we should be 
in the Department of Homeland Security. Because whether or not 
it is protecting people from the natural occurrences, preparing 
communities to be better positioned should these occurrences 
come about, recognizing that we are expecting these things to 
happen more so than ever in the past, not only are we looking 
to protect the people from these dangers, we are also trying to 
protect our communities from the vulnerabilities of those who 
wish us harm.
    So I am not quite sure where my colleagues on the other 
side of the aisle are assessing or quantifying your 
misallocation of priorities.
    So I need you to tell me, in addition to the things that 
you are already doing in FEMA and the assessments that you 
already had to make in infrastructure, what is it, Mr. Smith, 
Mr. Wright, or Mr. Kolasky, that could suggest to anybody, 
either in Congress or anyplace else, that you are improperly 
utilizing resources and placing a greater priority on the 
implications of climate change and the security of the 
homeland? Tell me what you think could cause one to think that.
    Mr. Smith. Well, Ranking Member, thank you.
    The first thing I would like to say is to affirm your 
perspective by which you asked that question, which is where 
the Department's priorities are focused. The Department's 
priorities are on those five enduring missions that I described 
in the statement. They are the foundation of what we do. It 
really addresses what we do with the $40 billion writ large 
versus an individual program that you have heard described 
there.
    So it is a little bit unclear to me how the perception is 
created that we don't have the proper priorities. I would just 
assure you that we do have those proper priorities. We are not 
considering climate change a mission of the Department. We 
consider it for its impact on the missions, statutory and 
validated by the QHSR.
    Mrs. Watson Coleman. I have been in these hearings--I love 
this committee, this Homeland Security Committee. I have been 
in here numerous times on cybersecurity issues. I have been 
here on lone-wolf issues. I have been here on risk associated 
with ISIL or somebody else attacking us on a wide range here. I 
have listened to the Department respond to each one of the 
questions that has come to it about whether or not it is 
employing its resources in a manner taking into consideration 
the variety of risks associated with all of those occurrences.
    Now, I am not going to suggest you are doing it all, 
because we are not doing it all. But it just seems to me--and I 
see that my time is up--it just seems to me that to haul you in 
here to discuss whether or not you are misapplying your 
priorities is a waste of taxpayers' money, when we have 
sufficient reason to believe that the impact of climate change 
on our people that live where they are drowning or where they 
are homeless or where they are injured or lost, as well as a 
possibility of extremists taking advantage of those 
vulnerabilities, it is real. It is not fabricated, it is not 
dreamland, it is real. We need to address it as such.
    Thank you. I yield back my time.
    Mr. Perry. The Chair thanks the Ranking Member.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. I want to thank the Chairman. I want to thank 
you for holding this hearing.
    Thanks to the panelists for being here.
    A team from Harvard University examined evidence recently 
from 240 scientific studies which show that today's 
temperatures are neither the warmest over the past millennium, 
nor are they producing the most extreme weather, in stark 
contrast to the claims of the environmentalists and in stark 
contrast to the claims of the administration.
    They studied temperature proxies, tree ring data, ice core, 
seabed settlement data. The data shows that during the medieval 
warm period--that was between the 9th and 14th centuries--
global temperatures significantly were higher than they are 
today.
    So what caused that warming? Humans were present. Can you 
guys tell me why the Earth was warmer during the medieval 
times?
    Mr. Kolasky. I don't think any of us can speak to that. We 
aren't----
    Mr. Duncan. Okay. But the Earth was warmer. The medieval 
warming period, based on the data provided, shows that grapes 
grew higher on the mountains, that the Earth was warmer.
    Mr. Kolasky. So one of the----
    Mr. Duncan. You are not going to refute that, I hope.
    Mr. Kolasky. No, but one of the premises of this 
conversation and each of our statements is understanding risk. 
Risk is planning amidst uncertainty. I think all of us would 
tell you, as security professionals, as risk-management 
professionals, that we are not trying to predict or say exactly 
what is going to happen in the future. We are talking about the 
range of things that are a possibility. DHS is a contingency-
based organization. We have the duty to think about what could 
happen and plan reasonably for doing so. That is what we are 
doing.
    I would also like to reiterate that we are doing that 
because we are listening to, in my case, the infrastructure 
owners and operators, who are telling us they need to have this 
information to make smart decisions about future----
    Mr. Duncan. Reclaiming my time, I believe the information 
has already been provided by a lot of other agencies. I think 
the redundancy is costing the American taxpayer a lot of their 
hard-earned dollars.
    The Chairman held it up. These are other agencies that the 
Government is funding with American tax dollars. These are 
hardworking American people that are paying money to the 
Government, tax revenue, for redundancy.
    The Earth has been warmer before, and it was warmer before 
fossil fuels, before the industrial revolution. This notion 
that man-made climate change is happening is, I think, wrong.
    I think your priorities are wrong at the Department of 
Homeland Security. I think that we have threats of ISIS, we 
have cartels shooting at helicopters on the border, we have 
unaccompanied children coming into this country, we have 
illegal aliens murdering beautiful, innocent lives in San 
Francisco, we have a woman that had her head blown off in Los 
Angeles by someone. There are events after events going around 
the world that are true threats to the United States, folks 
that want to do great harm to Christians, want to do great harm 
to others. They want to come to this country and end the 
American way of life. That, for whatever reason, we are now 
spending our hard-earned dollars on climate science and this 
belief that that is one of the biggest threats to National 
security.
    So I would ask you, the Department has released a number of 
documents in regards to climate change over the past 3 years. 
These documents have used serious language, such as, ``More 
extreme weather conditions in parts of the world with limited 
ability to provide State aid create opportunities for militant 
groups to become active in their communities''--Climate Action 
Plan, 2013.
    Does DHS leadership really believe that climate change is a 
primary cause of militant and terrorist groups? Mr. Smith, is 
that really what you guys believe?
    Mr. Smith. Representative, that is not what we believe. In 
those documents, which are focused on climate change impact on 
our mission, we describe that climate change can aggravate 
stressors such as poverty, such as food insecurity, such as 
causing population migrations, that for vulnerable populations 
with weak Government institutions, it may enable terrorist 
ideology to take hold. At no point would we want to say that it 
would be a primary factor.
    Mr. Duncan. So do you believe that climate change is having 
an effect on migration patterns that are causing the 
unaccompanied children to flee north?
    Mr. Smith. No, that is--we don't associate the----
    Mr. Duncan. I have seen some indication in reading 
documents that that is what you believe, as well, the 
Department, not you necessarily personally----
    Mr. Smith. Right.
    Mr. Duncan [continuing]. That you believe that climate 
change is going to cause migration patterns to change, and that 
could have some impact on what we are seeing right now.
    Let me ask you the final question. In your testimony, you 
identify--this goes to Robert. In your testimony, you identify 
terrorism, cyber threats, aging and failing infrastructure and 
components, climate change as the main threats to our National 
critical infrastructure.
    Where do you rank climate change?
    Mr. Kolasky. We worked with our partners in the private 
sector and other levels of Government to identify five risks to 
critical infrastructure to----
    Mr. Duncan. So where does climate change rank? No. 1? No. 
2? No. 5?
    Mr. Kolasky. It was not one of the five primary risks. The 
five risks that were identified were acts of terrorism--this is 
in the National Infrastructure Protection Plan published in 
December 2013--acts of terrorism, cyber attacks, pandemics, 
aging infrastructure, and extreme weather.
    We talk about climate change as something that could have 
an impact on those patterns, but the five primary risks we used 
to plan against critical infrastructure are those that I just 
stated.
    Mr. Duncan. I appreciate that.
    Mr. Chairman, thanks for this hearing.
    Look, FEMA is part of Department of Homeland Security. I 
get that. FEMA should be preparing for natural disasters that 
occur and have occurred since the foundation of this country, 
even before. Hurricanes, tornados, floods happen. I get that.
    But I would hope that we would reevaluate where we are 
spending the tax dollars that are earned by hardworking 
Americans. Because that is where the money comes from. It is 
not on the money tree out on West Lawn behind the Capitol. 
Because that tree in there, I have looked for it; it is not 
there.
    Americans working every day, providing tax revenue to the 
Government and hoping that you are going to--the Department of 
Homeland Security--you are going to protect this country 
against ISIS, against cartels and drug trafficking, against any 
other threats like cybersecurity and all that. That is the true 
mission of Homeland Security. We don't want to see another 9/
11. We don't want to see another cyber attack happen.
    So I would continue to urge the Department to focus your 
resources on where the Americans really, I think, believe you 
need to focus those resources.
    Mr. Chairman, thanks for the leniency, and I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now is privileged to recognize the Ranking Member 
of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    You know, we have heard a number of definitions about DHS's 
mission. When the Department was created, it was created to 
address natural disasters here at home but also to protect the 
homeland from terrorists.
    One of the issues that people have not focused on is, if 
you look at who the bad people are in this country right now, 
they are not Muslims, they are not people who identify with the 
Islamic faith. They are these right-wing fanatics who go to 
churches, who go to other institutions and do harm to people. 
So, if you look at the statistical analysis of who the bad 
people are in the country or you talk to law enforcement, law 
enforcement will tell you that they are more concerned, from a 
priority standpoint, with the growth of right-wing radicals in 
this country.
    Now, that is part of the broad countering violent terrorism 
that we deal with here in this country. But the demographics 
say that the bad people in this country who are doing more harm 
and pose a greater threat are the people who live here right 
now who are lone wolves.
    I appreciate the medieval history reference, but now I am 
trying to figure out, how does that identify with climate 
change, what we are dealing with right now?
    Hurricane Katrina impacted my district tremendously. We had 
Hurricane Sandy--for which a number of Members of this 
committee voted against the relief for that community until we 
cowered them down and had a second vote and the relief came. So 
people talk about all these things, but when it comes to the 
reality of the facts, big difference.
    We have to understand risk. We have to understand--we have 
to manage risk. Part of the management of risk is understanding 
what all these vulnerabilities are out here and how we address 
it. If climate change is one of those risks, we have to task 
the Department with coming up with an approach to manage it.
    Now, you can't say to the people in California that drought 
is not a problem. You can't say to people in other parts of the 
country that wildfires are not a problem. You can't tell the 
homeowners who participate in the Flood Insurance Program that 
we shouldn't have a Flood Insurance Program. But you are tasked 
with the responsibility of making sure that the analysis 
associated with the Flood Insurance Program is, in fact, one 
that meets the standards and requirements from a risk 
perspective.
    So here we go. Mr. Kolasky, with respect to the mission, 
how does climate change address the Office of Infrastructure 
Protection, in terms of analyzing risk?
    Mr. Kolasky. Sure. As I discussed, Mr. Thompson, climate 
change is one of the things that has the potential to impact 
the risk to critical infrastructure. Our contribution from an 
assessment perspective is to take the science from all the good 
science agencies, NOAA and others, and link the science to what 
the implications could be on the Nation's critical 
infrastructure.
    We have the responsibility in the office to work across 16 
critical infrastructure sectors and to understand, whether it 
be climate science, whether it be terrorist threat information, 
whether it be things related to cyber attacks, what are the 
things that can cause that infrastructure to fail?
    There are other people in the intelligence community, in 
the climate science community, in other analytic shops that are 
doing the analysis of the problem. We are connecting that 
analysis to the infrastructure owners and operators, and then 
we are giving them tools to make smart decisions about what 
they should do about it.
    Mr. Thompson. Thank you.
    Mr. Wright, with respect to FEMA and its mission, everyone, 
when something bad happens, they want to know, where is FEMA?
    Mr. Wright. Uh-huh.
    Mr. Thompson. Let's take the Flood Insurance Program. What 
impact would climate change have from an emergency preparedness 
standpoint and the fiscal soundness of the Flood Insurance 
Program?
    Mr. Wright. So this is something that Congress asked us to 
look at, and we did a study to look at the impacts, really, 
over the next 70 years. As we look at it, we do see the areas 
of flood hazard continuing to grow. We see the number of the 
population impacted by that continuing to grow.
    It comes from a couple of dimensions. Some of it is changes 
in these weather patterns. Some of it is also attributed just 
to changes in the built environment as more structures are 
built to house the next 10 million, 50 million, 70 million 
people in this country.
    So, when we look at it, this does over the next decades 
have an impact on, what does it look like for us to have a 
fiscally sound Flood Insurance Program? So we are looking at 
these elements as part of some of the reform legislation that 
was passed over the last 3 years. We have a Congressionally-
created advisory committee that is looking at this question of 
future risk, how that should be reflected in our analysis and 
ultimately be folded into the National Flood Insurance Program. 
I am expecting the report from that advisory committee later 
this year.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chair.
    Mr. Perry. The Chair thanks the Ranking Member.
    The Chair now recognizes the gentleman from Florida, Mr. 
Clawson.
    Mr. Clawson. Thank you.
    Thank you to you three for coming today. I really 
appreciate it.
    These are topics that are important to my district because 
we have lots of coast. We are Marcos Island all the way north 
to Fort Myers. So flood maps mean something to us.
    By the way, anything anybody can do to get that process so 
maps can be done sooner--you know, I know that is not the 
direct thing here, but, look, we have a lot of people, this is 
important to them, and we have just been waiting a long time to 
get some maps, because they want to be included in flood 
insurance or anything else. Sorry to divert a little bit, but I 
think you understand, Mr. Wright, what I am saying. Anything we 
can do here, I got a lot of people it is important to.
    Mr. Wright. I do. If I--just a couple moments on this, if I 
could, sir, to tell you that I share that commitment to make it 
happen faster.
    I need to do it in two ways: (A), I need to make sure the 
technology is there and we do it in ways that collaborate and 
use the data. You have water management districts and stuff in 
Florida that don't exist in other parts of the country who have 
great data for us to use.
    Mr. Clawson. I agree.
    Mr. Wright. The other side is to ensure that we give people 
due process under the law to review those maps. I have to hold 
those in tension together.
    Mr. Clawson. Okay, I got you. But now that we have done the 
due process side and it has all been open, let's get going 
while I have still got a few hairs on the top of my head.
    Mr. Wright. Yes, sir.
    Mr. Clawson. Let's get this done for the good of my 
constituents. We all want Government--we want our constituents 
to have confidence in Government and the money they are 
spending. Then we say, you all got to wait years and years and 
years and years for maps. Okay. Then give you more money after 
that.
    You understand what I am saying? I have a hard time with 
that conversation back home, when the basics don't happen and 
then we want more money. I think you see where I am coming 
from.
    Mr. Wright. I do.
    Mr. Clawson. Now, I have always--and, look, we have met 
with the top folks at FEMA off-line. We have a lot of 
confidence that they are managing their business or their 
organization on a year-over-year basis with some meaningful 
measurables. We appreciate that.
    But it still feels to me like, okay, if I have a 
hurricane--and hurricanes have been going on forever, so let's 
leave that other debate that we get bogged down in, let's leave 
it aside for a minute and stay practical--our FEMA money is, 
you know, the calvary that goes out to the front line when the 
battle starts to, you know, bring reinforcements and to help us 
get things under control, God forbid, if there were ever a 
hurricane in my district, which we have had plenty.
    I am not sure--it feels to me like the other kind of 
incremental money, whether it is climate change, workshops, or 
anything else that is being spent here, why doesn't that just 
belong in NOAA or somewhere else? It feels to me like FEMA is 
the calvary, not the prediction department.
    Am I missing something here? So, when I saw all this money, 
I was like, I am not connecting--there must be some obvious 
dots that I am missing.
    Mr. Wright. So let me try to connect those dots.
    We, FEMA, rely on NOAA, the U.S. Geological Survey, NASA, 
and other science agencies to provide us the core data. When we 
look at issues like hurricanes, we are dependent on the 
National Hurricane Center for the work that they do, and then 
that feeds forward.
    So the work that FEMA does--we have talked a bit about the 
analysis of risk, like the flood maps, but you have mentioned 
some of the other kinds of elements. So, in this past year, we 
have set aside to do 75 exercises across the country. These are 
exercises that are done at kind of a watershed scale across 
multiple municipalities, working with a State, that says, when 
an event comes ashore, how are we going to respond? What does 
that integration look like?
    So we look at these extreme events, because those are the 
points that actually stress the system. We spend our dollars 
there.
    Mr. Clawson. To reclaim my time, that I like, right? 
Because you guys are coming; we are prepared before the storm, 
God forbid, hits my district.
    Mr. Wright. Yes, sir.
    Mr. Clawson. Now, what I don't understand is where--climate 
change seems to be predictability. In this budget round, I went 
out and asked for more money for NOAA so they would do better 
at this sort of thing. What has FEMA got to do with that?
    Mr. Wright. So NOAA's piece is they do the top-line 
science, which then we need to apply. So we take those elements 
and then use that related to discharges and changes in still-
water levels when the surge comes in. They provide us the core 
science, and then we have to go through and actually map that 
against that statistical risk.
    So you will see in the budget request this year to increase 
dollars to do that flood risk analysis. Much of that ties back 
to the flood insurance rate maps, but we use those same data to 
inform our response activities.
    Mr. Clawson. That data come from NOAA.
    Mr. Wright. NOAA provides the top-line----
    Mr. Clawson. Correct.
    Mr. Wright [continuing]. Science, and then we take and do 
the calculations on a jurisdiction-by-jurisdiction basis.
    Mr. Clawson. So it sounds to me like we would have been 
doing that 20, 30 years ago, whether we were debating about 
climate change or not. Let's just be prepared for the next 
hurricane. All the chatter about whether it is climate change 
or not, I am just not sure how that helps my constituents. I 
would just like to be ready for the next hurricane and that be 
that, all right?
    Mr. Wright. I would share the sentiment, in that FEMA's 
principal concern is the consequence management side of this.
    Mr. Clawson. I like that.
    Mr. Wright. I don't personally get into the debates that go 
on. What I will tell you is we have events that are occurring, 
they are wide-scale, and they are very expensive. We need to 
ensure that we are trying to reduce that risk and, more 
related, to ensure that we are pulling down the overall cost.
    Mr. Clawson. Yeah, okay. I mean, as my final word, the more 
you all concentrate on execution and actually delivering the 
good, like a flood map or two and hurricane preparedness, and 
less on this debate, the better off we will all be. I think you 
can agree with that, right?
    Mr. Wright. Yes, sir.
    Mr. Clawson. Thank you, sir.
    Mr. Perry. The Chair thanks the gentleman from Florida.
    The Chair now recognizes the gentlelady from California, 
Mrs. Torres.
    Mrs. Torres. Thank you.
    I want to piggyback, echo one comment, and that is 
regarding the maps, for a different reason. My district, we are 
eager to shift the cost of my homeowners to his homeowners, 
because we have already done the infrastructure improvements, 
that we no longer want to pay for flood insurance, because we 
are covered, right?
    So the urgency of getting those maps preapproved and 
inspections of the infrastructure improvements in our 
communities is really important.
    Mr. Wright. Understood.
    Mrs. Torres. I want to thank the three of you for being 
here today. I want to apologize for the direction, the title of 
misguided--or misplaced focus on climate change. I think we 
might have found the misplaced focus on climate change here, as 
we continue the dialogue of how much money is being spent on 
prevention.
    As a former 9-1-1 dispatcher, I spent almost 18 years 
directing first responders where to go during disasters, 
whether they are man-made disasters or natural disasters. 
Listening to 9-1-1 calls for service from constituents during 
their most vulnerable time in their lives--those are critical 
times for the American people. So I want to thank you in 
advance. As a former mayor, also, you know, I had to call for 
disaster assistance in my community after a major earthquake 
had a huge impact in our community.
    You know, countering violent extremists, that is a cross-
Government mandate, just as climate change should be a cross-
Government mandate. I am not here to debate that, although I 
will say that we continue to reinforce the border to the south 
in fear of the bogeyman while neglecting the real risk to the 
American people, and that is the next hurricane that is going 
to hit and take down a bridge, or that is the next flood that 
is going to impact our homeowners.
    Katrina might have happened in Mr. Thompson's district, 
but, during that time, California had major fires. The drought 
is real. Whether we want to debate that the flood hazard is due 
to the fires, that is due to the water drought, people don't 
see that. Homeowners lost their homes. I lost my home to a 
fire. I can tell you that I can go to the local lumber yard and 
there was nothing available because all of that merchandise was 
going to his district to help rebuild his community.
    So, when we talk about National security--and my district 
is impacted by the goods that come in through the ports. We are 
fast-tracking, because we desperately need these materials to 
rebuild our communities. What does that impact look like for 
public safety at the ports?
    As a 9-1-1 dispatcher, when an incident happens, a natural 
incident happens, and I am directing our first responders into 
an area that has been impacted, who is looking and responding 
to those other calls for those local terrorists that are 
creating havoc in our communities?
    I see the young man that murdered a CHP officer on the 
steps of my courthouse as a local terrorist. I see the 
incidents that happen at that church in South Carolina as a 
local terrorist. That is the focus of this committee.
    I want to ask you, Assistant Secretary Smith, how would the 
Department's understanding of homeland security threats and 
risks be affected if the Department were to remove the analysis 
of climate events from its assessment of the Quadrennial 
Homeland Security Review?
    Mr. Smith. So thank you, and thanks for your compelling 
statements about, you know, your past experiences.
    So, with regard to climate change, with regard to removing 
it from the QHSR, first, that would be out of step with our 
process, which intends to consider a range of uncertainties. We 
started out with almost 500 and worked them down through a very 
collaborative stakeholder thing. But it would not enable us to 
project potentially the size and scope of potential challenges 
at the border or even overseas, in terms of preparing the 
Nation for future threats.
    Mrs. Torres. On the issue of the $16 million, in 
comparison--and I don't know what we spent on the Southern 
Border for security, but let's pretend for the sake of argument 
here that we spend $10,000 to secure our Southern Border. The 
$16 million, in comparison, would equal to $3. So what are we 
doing here?
    Mr. Perry. The Chair thanks the gentlelady.
    I am going to go for a brief second round for anybody that 
is interested. I have a couple of questions.
    I know in the grand scheme of the DHS and the Government 
maybe $16 million seem paltry, but where I come from $16 
million is a lot of money. It is real money. We have a duty, we 
have a responsibility in oversight in this job and in this 
committee, like all the others, and we are going to continue 
with that duty.
    This is to Mr. Kolasky. In DHS's fiscal year 2016 budget 
request, there was $10 million allotted for analysis of climate 
change impact on infrastructure. If I ask what is the intended 
use of that money, I hate to say it, but I think I am going to 
get some kind of long, rambling answer about we are going to 
study this and study that.
    Go ahead. Answer the question, if you can, succinctly and--
--
    Mr. Kolasky. I hope that is not a statement of my 
eloquence, but I suspect it may be.
    Mr. Perry. It is not meant to be.
    Mr. Kolasky. So $4\1/2\ million go to our Office of Cyber 
and Infrastructure Analysis, which is working on analysis on 
the impacts of drought, wildfires, extreme weather, and 
flooding on critical infrastructure.
    Five-and-a-half million dollars go to our Office of 
Infrastructure Protection to do two additional regional 
resilience assessment programs, which looks at how impact of 
disaster to infrastructure could potentially impact the entire 
infrastructure system that underpins a community. We have a 
successful program where we have done 60 of those over the last 
several years.
    Mr. Perry. So are those disaster-related risks and 
mitigation, or is that climate-change-related mitigation and 
risk?
    Mr. Kolasky. Those are intended to look at the resilience 
of systems to disasters that they could be exposed to. The 
other parts that are related to climate change, in part, are 
the impacts of things like potential sea-level rise, potential 
change in temperature, or potential change in precipitation 
patterns. So it is not just the extreme weather event, but it 
is also some of the underlying conditions that may occur that 
would have impact on infrastructure operations.
    Mr. Perry. There is nowhere else to get that data?
    Mr. Kolasky. There is nowhere else to get that data in an 
integrated manner on the impacts to infrastructure. We are 
putting----
    Mr. Perry. Have you asked?
    Let me ask you this: Did the Department not analyze the 
state of our critical infrastructure in the past? I know the 
answer is going to be ``yes,'' right?
    Mr. Kolasky. Yes.
    Mr. Perry. Of course they have, right?
    So did NPPD coordinate with the Department of 
Transportation or the Federal Aviation Administration on this 
analysis to determine if any duplicative studies exist? Did you 
check?
    Mr. Kolasky. Yes. So, for example, right now, to do a 
scoping study, we have worked with an interagency process to 
look at potential exposure to infrastructure to extreme weather 
that involved the entire interagency process. We have a study 
that will be published by the RAND Institute in the next 2 
months that will have been peer-reviewed by all of the science 
agencies as well as our partners in other critical 
infrastructure. They participated in providing support and 
reviewing to make sure we were not duplicating efforts.
    Mr. Perry. Okay. Thank you.
    Now, on this issue, further on this issue, according to the 
GAO, there are no programs to monitor and independently 
validate the effectiveness and sustainability of Federal 
efforts in this regard.
    So how will we ensure efficacy? How will success be 
measured and validated? You are going to spend $10 million if 
you get your request----
    Mr. Kolasky. So, without knowing what ``this regard'' means 
in the GAO, we publish annually, we send to Congress annually a 
National annual report on the risks to the Nation's critical 
infrastructure. We have published them and sent them up to 
Congress for the last 2 or 3 years, and we will continue to do 
it annually based on a statutory requirement from----
    Mr. Perry. Are there metrics in there that said, we spent 
$10 million and this is what we got?
    Mr. Kolasky. There are metrics that talk about the degree 
to which we have increased the security resilience of the 16 
critical infrastructure sectors.
    Mr. Perry. All right.
    Moving on, last question for anybody that wants to answer 
it. In the 2014 QHSR, pandemics are mentioned as a trend 
associated with climate change. To that effect, can anybody 
provide any modern example of a pandemic being linked with 
climate change?
    Mrs. Torres. I have one.
    Mr. Perry. Okay.
    Mrs. Torres. We have a--our trees are being eaten up from 
the inside out by a mold that is increasingly growing because 
of climate change and because of the dry weather in California.
    Mr. Perry. I am not sure that classifies as ``pandemic,'' 
but I will accept your assessment there.
    With that, I am just going to yield. I will recognize the 
gentlelady from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    First of all, I just kind of want to point out something, 
that you all don't generate every one of your reports. You rely 
upon information coming from other places with specialties and 
expertise, and then you apply your assessment as it relates to 
what your role would or would not be in those situations.
    Basically, what I have heard is that what you do you do 
anyway. Now that you recognize climate change as a multiplier 
or a possible impact on those things that you already do, it is 
something that you ought to take into consideration.
    Mr. Smith, I wanted to talk to you about--I wanted to clear 
up something, and then I wanted to ask you a question.
    You were asked whether or not you were concerned about, as 
a result of climate change, a shift in population and whether 
or not that created a possible threat of some sort. You 
specifically answered no. But then, in your testimony, you do 
kind of speak to the shift in population associated with 
tropical storms and droughts and the impact of those and the 
increase in immigrants arriving at the U.S. borders. So the 
question would be: What would be the impacts on some of the 
component agencies, like ICE and CBP?
    The last thing I want you to answer: Are you aware of the 
impact of the northern migration of mosquitoes that is creating 
exposure to a disease called dengue? Is that in any way 
happening as a result of this change in climate? Does that have 
an impact on our health and well-being?
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you, Ranking Member. You have made a few 
comments, so I will try to work my way through each of those.
    I think the first thing you brought up is the degree to 
which we rely on other Government agencies and academia and 
peer-reviewed documents. I think it is important to understand 
that, really, we work with that data and then apply Homeland 
Security expertise to assess risk. We do not do climate change 
research in the Department of Homeland Security. So that was 
the first point.
    Thank you for giving me the opportunity to clarify the 
migration comment. Because I was answering a specific question 
about whether last summer's surge of unaccompanied alien 
children, adults, and family units--that we associated that 
with climate change as a threat multiplier. We do not. Our work 
that I have been exposed to--I am not in the current operations 
of the Department--talk about our potential factors for that 
and don't associate that surge with it.
    More broadly, though, kind-of the methodology we applied to 
look at climate change and its impact on our mission comes to 
the conclusion that changes in weather, droughts, and other 
things cause populations to displace. With regard to those near 
our border, it could cause surges in what our ICE, Customs and 
Border Protection, Coast Guard, and other law enforcement 
personnel would be needed to be prepared to do to address those 
surges.
    Then with regard to the other missions of the Department, 
those same population migration concerns can cause instability, 
can lead to it, as a factor, not the factor, in the instability 
of their institutions' ability and make them more susceptible 
to terrorism, ideology, things of that nature.
    As to the last question on a very specific technical, you 
know, thought, I don't have an answer on that. If we can take 
that back and try to come back to you with an answer for that 
one.
    [The information follows:]

    ``According to the World Health Organization, the geographic 
expansion of the Aedes mosquitos that serve as reservoirs for dengue 
beyond tropical and subtropical countries has been reported since the 
1970s. In the last 40 years, the range of Aedes mosquitos have spread 
northward from South America to Central America, Mexico, the Caribbean 
as well as to southern and southeastern U.S. States and territories. 
Temperature is a known factor in the survival and expansion of the 
mosquito's range and associated cases of dengue. Increased 
temperatures, humidity, and precipitation associated with global 
climate change might contribute to the northward expansion of Aedes 
mosquitos in areas with typically more temperate climates. A number of 
other factors, such as international trade and travel, population 
movement, urbanization, and discontinued use of DDT-containing 
pesticides might also drive the mosquitos' geographic spread. Improper 
water storage and waste disposal practices associated with poverty 
might also contribute to the spread of dengue. Nearly all dengue cases 
reported in the continental United States were acquired in another 
country by travelers or immigrants. Most cases of locally-acquired 
dengue among U.S. citizens are reported from Puerto Rico and the U.S. 
Virgin Islands. In the past 15 years, there have been three outbreaks 
of locally-acquired dengue in the United States outside its 
territories, including Florida (2009-2010), the Texas-Mexico border 
(2005), and Hawaii (2001). The outbreak in Hawaii was linked to the 
first case recently travelling to French Polynesia where the case was 
likely exposed to dengue. In U.S. territories where dengue is endemic, 
continued surveillance and control of the mosquito population is 
recommended to reduce the occurrence of dengue.''

    Mrs. Watson Coleman. Thank you.
    Mr. Chairman, I yield back.
    Mr. Perry. The Chair thanks the Ranking Member.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    You know, I guess the press and all will label me as a 
climate-change denier. I am not a climate-change denier. I am a 
man-made-climate-change denier, but I do believe the climate is 
changing. I just don't believe man has that much control over 
it.
    Mr. Smith, the Department of Homeland Security is a 
Cabinet-level agency, correct? The Secretary is on the Cabinet?
    Mr. Smith. That is correct.
    Mr. Duncan. So you work for the Secretary. So, ultimately, 
you guys work for the President of the United States, correct?
    Mr. Smith. That is correct.
    Mr. Duncan. Okay.
    So President Obama says that no challenge poses a greater 
threat to future generations than climate change. His words.
    Do you believe that climate change is a larger threat to 
our National security than ISIS or other Islamic terrorist 
groups, particularly their ability to use social media to 
radicalize individuals in the United States? Do you believe 
climate change is a greater threat than Islamic terrorists?
    Mr. Smith.
    Mr. Smith. No, that--no. Thank you. That is not the way we 
would characterize it. As I say, as a Department, our mission 
is preventing terrorism. So climate change, it is a stressor, 
it is a potential threat multiplier, but it is not the direct 
threat, from the perspective of the missions of the Department 
of Homeland Security.
    Mr. Duncan. Okay. Okay.
    So the 2014 QHSR, Homeland Security Review, neglects to 
mention nation-states such as Iran, Russia, and China, but it 
mentions climate change. The 2014 Quadrennial Defense Review 
touches on all three of these nation-states--Iran is the 
largest destabilizing actor in the world; Russia's violation of 
other neighbors' sovereignty, such as Ukraine; and China's arms 
buildup--as threats to our National security. But now the QHSR 
fails to mention those three but mentions climate change. I 
think that is in direct repudiation of what you just said.
    So where does all this rank--Iran, Russia, China, Islamic 
State, and climate change--when the QHSR neglects to mention 
these three states but mentions climate change? So how do you 
reconcile what you just said with that?
    Mr. Smith. So you have also made reference to several--I 
think the National Security Strategy, and there is a defense 
component to it and then the homeland security component. We 
look at the threats through the prism of our mission sets and 
intend to adequately prepare the Nation for threats of 
terrorism and all hazards. I would leave it at that.
    Mr. Duncan. But your boss said that no challenge poses a 
greater threat to future generations than climate change.
    Mr. Chairman, I go back to Mrs. Torres from California said 
that--she apologized for the ``misplaced focus on climate 
change'' title of the hearing. I think the title is apropos. I 
think that the priorities of the Department are misplaced.
    You are spending taxpayer dollars on things that really, if 
you go by your boss, okay, but the American taxpayer, I 
believe, disagrees with you. I think that even the Quadrennial 
Defense Review may disagree with you.
    So, Mr. Chairman, I thank you for the hearing, and I yield 
back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes the gentlelady from California.
    Mrs. Torres. Thank you.
    I also want to correct part of a statement that was made. I 
think the President in his speech said that climate change 
would perhaps be the greatest challenge that public safety 
personnel would have.
    Given that we haven't had funding for a new transportation 
bill, given the fact that we know that we need to build higher 
bridges, that we need to reinforce our infrastructure, we know 
that the storms are getting bigger and impacting more and more 
Americans, how much more funding would your Department need in 
order to fully assess the threat of climate change on the 
American people?
    I know ``climate change'' is sort-of a, you know, four-
letter word, you know, across the aisle. But we can call it 
anything that we want to call it, but we need to move forward 
with an agenda that ensures that we are looking at the specific 
issue that is causing a huge problem in our communities.
    Mr. Wright. I would highlight a couple items for you.
    The attention to flood risk in the future and the evolution 
of that is one that was highlighted in the President's budget 
request, to increase the investment that FEMA is making on an 
annual basis to $400 million a year. This understands both our 
current risk as well as helping to inform how people will build 
in the future, which I think is an important element of this.
    As the economic vitality of the country continues and we 
continue to grow and have additional populations, there are 
going to be sited somewhere. Much of these data begin to help 
inform communities so that they ensure that that future 
development happens outside of an area where they have a high 
hazard of flood or need flood insurance.
    I would point to those elements from an analysis 
perspective as one of the ways that FEMA would play in that 
space.
    Mrs. Torres. Four hundred million dollars, that is only for 
flood analysis.
    Mr. Wright. That only deals with flood analysis on an 
annual basis.
    Mrs. Torres. What about earthquakes? What about fires? What 
about droughts?
    Mr. Wright. So this goes to the point in terms of which 
agencies have primary responsibility. So there is an 
Interagency Fire Center. I know you are very aware of that. We 
collaborate with them, but it is really the Departments of 
Interior and Agriculture, through the Forest Service, who take 
the lead on that.
    But we pull those pieces in. I will highlight this, and I 
know that you guys are experiencing this in California right 
now. After the drought and the increased fire, kind-of, danger 
that is there, two things begin to happen. When rain does come, 
it doesn't absorb into the ground, and it creates flash floods. 
Then when the fires come, it creates a fire scar that 
ultimately is like a slick of asphalt, so when the next rain 
comes it exacerbates this. We have seen this throughout 
southern California.
    We are working with folks as they do experience those fires 
to ensure that they have the right kind of information and 
insurance so that when the floods come behind that--it may just 
be an inch of rain. In some parts of the country, we wouldn't 
think that is very much, but an inch of rain coming in 
California right now, particularly right after a fire, can be 
devastating.
    Mrs. Torres. So, in regards to floods, your agency has 
identified bridges and certain infrastructure that needs 
immediate attention.
    Mr. Wright. We have highlighted areas by which the 
infrastructure doesn't provide the level of protection that it 
once did.
    Mrs. Torres. Where can I get that information?
    Then I will yield my time.
    Mr. Wright. So we will do this in a collaboration with 
other agencies. On the levy side, I have a database that looks 
at about 36,000 miles of levy in the country. That is the first 
place I would highlight with you. Then we do it in 
collaboration with the work that goes on in infrastructure 
protection, as they work across all of the sectors. 
Collectively, we will work with you.
    Mr. Perry. The Chair thanks the gentlewoman from California 
and recognizes the gentleman from Florida, Mr. Clawson.
    Mr. Clawson. So, Mr. Wright, before you leave today, let's 
you and I exchange telephone numbers, okay? We can be buddies.
    Mr. Wright. Absolutely.
    Mr. Clawson. Anything to do with executing preparedness for 
the next hurricane, God forbid, and some maps would just be 
wonderful for us. In exchange for that, anything I can do to 
help you all, I am all ears too.
    Mr. Wright. We will exchange phone numbers. I will make a 
phone call before I get back to the office to see some of that 
move faster.
    Mr. Clawson. I really appreciate that. Look, you know, we 
have a fair amount of confidence in what is going on here. If 
we could just nail that down on the maps, it would make a whole 
lot of people in Florida a lot happier.
    Now, I want to go back to Mr. Smith, just to make sure--
just to change topics totally. Dengue fever or Chikungunya, 
outbreak all over the world. You know, you go to the monsoon 
season in India or Southeast Asia, at the end you are going to 
have big breakouts because you have pooling water. It is an 
urban, indoor, mosquito-based virus. Knocks old folks and young 
folks off their feet totally.
    I am told that in Florida we don't have as much risk. I am 
always thinking about it, always talking about it, because it 
is big in the Caribbean, it is big in South America, because 
you have a lot of water that pools. I am told that in our case 
these sorts of mosquitoes, the big black ones, don't move from 
south to north because there is not as much pooling of water. 
Therefore, although I am concerned about it because I see the 
blood tests in the Keys that show a certain amount of 
penetration, it is not something that I have to be in south 
Florida overly concerned about. Dengue is not fun, dengue 
fever.
    So I have two questions. No. 1 is: I think you would 
probably agree with what I just said as kind of a broad-based 
synopsis. No. 2: Is this even in your area, or is this totally 
managed by CDC? What goes on here with respect to Chikungunya 
and dengue?
    Mr. Smith. So I do believe that you are predominantly 
referring to expertise that resides in other agencies. To the 
extent to which we then take information and then we assess 
risk as to border security, you know, the flows across borders, 
both legal and illegal, what is inside of packaged goods and 
things like that, that is where we would consider it. Then 
there is always a resilience aspect of our population that is 
being worked, as well.
    Mr. Clawson. So is dengue and Chikungunya--which, you know, 
they have a week gestation. You know, it takes the sickness a 
while to--do we do anything different in, you know, Miami 
International Airport or anywhere elsewhere where we have 
flights coming back from these countries? Do we have any sort 
of different screening process? I don't know.
    Mr. Smith. I would have to get back with you on that. I am 
sure there is some variation, expertise about local 
considerations. But it is a global, you know, market, so there 
are probably some standards across, and then there are some 
probably unique at different regional places. But I can get 
back with you.
    [The information follows:]

``DHS Customs and Border Protection (CBP) Office of Field Operations 
(OFO) conducts passive surveillance on all passengers on international 
travel to the United States through our airports. This surveillance 
includes observing passengers for sickness that warrants further review 
by the Center for Disease Control. They do not have a specific protocol 
for Dengue fever and Chikungunya. CBP OFO is in regular communication 
with CDC and is prepared to implement increased protocols consistent 
with the need.''

    Mr. Clawson. Yeah, I mean, my district, that is--you know.
    Then, just secondarily, the second question is because of, 
as I understand it, less pooling water because we have more 
modern drainage, I understand it is less of a risk. But, look, 
we want to keep folks from getting it. I have had it, and it 
ain't fun.
    Mr. Smith. Okay.
    Mr. Clawson. Thank you. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    Just to make sure--none of us want the President to be 
misquoted here. So I am going to read the quote that I think 
everybody is referring to from the questioners today.
    I quote: ``I'm here today to say that climate change 
constitutes a serious threat to global security, an immediate 
risk to our National security.'' Those remarks were made at the 
U.S. Coast Guard Academy graduation, May 20, 2015.
    With that, I want to thank the witnesses. We appreciate 
your indulgence and your willingness to be in the hot seat 
here. Your testimony and your insight is valuable.
    I thank the Members for their questions, as well.
    The Members of the subcommittee may have some additional 
questions for the witnesses, and we will ask that you respond 
to these questions in writing.
    Mr. Perry. The first panel of witnesses are excused.
    We will take a momentary break while we set up the second 
panel.
    Thank you, gentlemen.
    The Chair will now introduce our witness for the second 
panel. It seems like it will be a much more up-close and 
personal exchange, for better or worse.
    Professor Marc Levy is the deputy director of the Center 
for International Earth Science Information Network at Columbia 
University. His research focuses on environmental security and 
other areas. He is also an adjunct professor in Columbia 
University's School of International and Public Affairs.
    Thank you very much for your indulgence. I noticed you were 
present throughout the last panel, as well. I would like to 
recognize you now for your testimony.

    STATEMENT OF MARC A. LEVY, DEPUTY DIRECTOR, CENTER FOR 
   INTERNATIONAL EARTH SCIENCE INFORMATION NETWORK, COLUMBIA 
                           UNIVERSITY

    Mr. Levy. Thank you. Good morning, Chairman Perry, Ranking 
Member Watson Coleman, and Members of the subcommittee. My name 
is Marc Levy. I am deputy director of CIESIN, a unit of the 
Earth Institute at Columbia University. I appear before you in 
my personal capacity.
    I have been studying the interactions between environmental 
change and National security for over 20 years, with a 
particular focus on climate change. I served as the lead author 
on the Intergovernmental Panel on Climate Change Fifth 
Assessment Report's chapter on human security, and I have 
regularly provided advice to U.S. Government bodies on these 
questions.
    I will show that the premise of this hearing is backwards; 
the Department of Homeland Security is not doing enough to 
prepare the country for security threats from climate change.
    Consider first threats to the homeland. Last year, a 
bipartisan commission analyzed the economic risks of climate 
change and found that the U.S. economy faces potential losses 
of tens of billions of dollars over the next 5 to 25 years as a 
result of increased storm damage, large-scale crop losses, and 
disruptions to the energy system. In addition, heat waves 
threaten to kill tens of thousands of Americans per year. Some 
risks are with us right now already. In Alaska, climate change 
impacts are already rendering entire towns virtually unlivable.
    If a group were to adopt the goal of inflicting these harms 
on the homeland, they would immediately jump to the top of our 
terrorist threat list.
    If we look overseas, those charged with defending U.S. 
National security have concluded that extreme events from 
climate change are likely to create security problems that 
could require deployment of U.S. forces or provide openings for 
the expansion of influence of organizations and governments 
hostile to our vital interests.
    The Defense Department labels climate change an immediate 
security threat. This view emerged rapidly and without partisan 
divisions. A 2003 Department of Defense study and a 2008 
National Intelligence Assessment are among the key milestones. 
We are not alone; our allies see things the same way.
    This is not mass hysteria. Three central developments 
explain this convergence.
    First, a rapidly expanding set of scientific studies has 
examined the historical data and shown that there is a very 
strong statistical correlation between climate stress and 
political violence and instability. One example is in the 
upper-left corner of that slide.
    Second, the climate stresses that have historically 
elevated security risks are now manifesting with higher 
frequency, greater magnitude, and even in new alarming forms. 
That is the second slide in the middle on the top.
    Third, there are global changes underway that are making 
security more tenuous even before climate change enters the 
picture, so this multiplier effect is now more serious. For 
example, the number of partially democratic regimes, which are 
at very high risk of instability, is at an all-time historic 
high. That is the graph on the lower left. Food prices have 
jumped about 60 percent over the last decade and have stayed 
there. That is the middle bottom graph. Then uncertainty over 
the evolving balance of power is triggering more conflict over 
territory.
    So all these things together are making the world more 
dangerous, and we are seeing signs of that danger. The graph on 
the lower right is showing the increase in violence around the 
world, instability over the last 10 years.
    These overseas risks affect the homeland, too. Terrorist 
organizations are more likely to succeed where weak governments 
have low authority. The loss of such authority can be 
accelerated by the dynamics associated with climatic stress.
    So it is time to shift gears and move beyond understanding 
the threats and get about the task of mounting an effective 
response. This is where I think the administration should be 
doing more, not less.
    A National Research Council study on climate and security 
recommended that the United States develop a whole-of-
Government strategy for monitoring threats and for doing a 
series of regular stress tests. But the White House has not 
done this. In fact, if you look at what is publicly available 
in the press, it seems that we are moving backward in some 
ways. The CIA Center for Climate Change was closed in 2012, and 
MEDEA, a program that enabled climate scientists to work with 
intelligence data, has also been shut down. In my view, MEDEA 
should be brought back.
    So, in summary, a simple logic explains why DHS should 
incorporate climate change into its risk framework: Climate 
change is endangering Americans and disrupting our economy. It 
threatens to destabilize regions of high National interest. 
That same logic renders inexcusable the slow pace of meaningful 
action responding to that threat.
    Thank you.
    [The prepared statement of Mr. Levy follows:]
                   Prepared Statement of Marc A. Levy
                              July 8, 2015
    Good morning Chairman Perry, Ranking Member Watson Coleman, and 
Members of the subcommittee. My name is Marc Levy, and I am deputy 
director of the Center for International Earth Science Information 
Network, which is a unit of the Earth Institute at Columbia University. 
I appear before you in my personal capacity.
    I have been studying the interactions between environmental change 
and National security for over 20 years, with a particular focus on 
climate change. I served as a lead author on the Intergovernmental 
Panel on Climate Change (IPCC) Fifth Assessment Report's chapter on 
Human Security (Adger et al 2014) and have regularly provided expert 
advice to U.S. Government bodies.
    I will show that the premise of this hearing is backwards. The 
Department of Homeland Security (DHS) is not doing enough to prepare 
the country for security threats from climate change.
    Consider threats to the homeland.
    Last year a careful analysis of the economic risks that climate 
change poses for the United States, overseen by a bipartisan 
commission, found that the U.S. economy faces potential losses of tens 
of billions of dollars over the next 5-25 years as a result of 
increased storm damage, large-scale crop losses, and disruptions to the 
energy system (Risky Business Project 2014). In addition, heat waves 
threaten to kill tens of thousands Americans per year. The U.S. 
National Climate Assessment found similar dangers looming. Some risks 
are with us now: In Alaska climate change impacts are already rendering 
entire towns virtually unlivable (Melillo, Richmond, and Yohe 2014).
    A group that adopted the goal of inflicting such harm on the 
homeland would immediately jump to the top of our terrorist threat 
list.
    Those charged with defending U.S. National security abroad have 
also converged around a view that extreme events from climate change 
are likely to create security problems that could require deployment of 
U.S. forces or provide openings for the expansion of influence of 
organizations and governments hostile to our vital interests.
    This view emerged rapidly and without partisan divisions, with a 
2003 DoD study (Schwartz and Randall 2003) and a 2008 National 
Intelligence Assessment (Fingar 2008) key initial milestones. Since 
2009 every National Threat Assessment by the Director of National 
Intelligence has pointed to climate change as a major security threat. 
The Department of Defense (2014) has identified climate change as an 
immediate threat. A complete list of U.S. Government assessments of 
climate-security risks can be found at http://climateandsecurity.org/
resources/u-s-government/.
    The speed and depth of the transformation in our thinking that I 
have outlined is analogous to the way George Kennan's famous ``Long 
Telegram'' came to reorient U.S. foreign policy after WWII around the 
strategic goal of containing Soviet expansionism. In both cases initial 
skepticism gave way to both the strength of the logic and the power of 
the evidence that unfolding events provided.
    We are far from alone. Our allies see things the same way (American 
Security Project 2014). The most recent IPCC report says that ``human 
security will be progressively threatened as the climate changes'' 
(Adger et al 2014, p. 758). A G7-commissioned study concludes 
categorically that ``Climate change is a global threat to security in 
the 21st Century'' (Ruttinger et al 2015).
    This is not mass hysteria. Three central developments explain the 
remarkable convergence.
    1. A rapidly expanding set of scientific studies has examined the 
        historical data and shown that climate stress is very strongly 
        statistically associated with political violence and 
        instability (Hsiang et al 2013).
    2. The climate stresses that historically have elevated security 
        risks are manifesting with higher frequency, higher magnitudes, 
        and even in new alarming forms (McElroy and Baker 2012).
    3. There are global changes underway that are making security more 
        tenuous even before climate change enters the picture, making 
        the incremental effect of climate stress more dangerous. For 
        example, the number of partially democratic regimes, which are 
        at very high risk of instability, is at an all-time high 
        (Goldstone et al 2010, Center for Systemic Peace 2014). Food 
        prices, also a major risk factor, have jumped about 60% above 
        their long-term average (Bellemare 2014, Food and Agricultural 
        Organization 2015). And uncertainty over the evolving balance 
        of power is triggering more conflict over territorial access 
        and control (Mead 2014).
    These risks affect the homeland. Terrorist organizations are more 
likely to succeed where weak governments have low authority. The loss 
of such authority can be accelerated by the dynamics associated with 
climatic stress (NRC 2013, 75-96).
    It is now time to shift gears and focus on the hard task of 
mounting an effective response. And this is where the administration is 
failing to meet the challenge.
    Consider some core recommendations made by a National Research 
Council (2013) study on climate and security, carried out at the 
request of the U.S. intelligence community, which was released 2\1/2\ 
years ago.
  <bullet> Improve the ability to quantify the risk of disruptive 
        climate events, including single extreme climate events as 
        clusters and sequences of events (7).
  <bullet> Improve understanding of the conditions under which climate 
        impacts lead to security breakdowns (8).
  <bullet> Develop a whole-of-Government strategy for monitoring 
        threats linked to climate change (10).
    Establish a system of regular ``stress testing'' to identify 
potential problems concerning the ability of countries and global 
systems to manage disruptive climate events (11).
    The need for an operational capability to understand and respond to 
climate-triggered security problems abroad was identified as far back 
as a 2003 in a DoD study (Schwartz and Randall 2003).
    But the White House has not responded. In fact, if one examines 
publicly accessible information it seems that we are moving backwards 
in some critical areas. The CIA's Center for Climate Change was closed 
in 2012 (Broder 2012), and MEDEA, a program that enabled university 
scientists to work with intelligence data to deepen understanding of 
the security aspects of climate change, has since also shut down 
(McDonnell 2015). In my view, it is imperative that MEDEA be 
reinstated.
    In this context, what the Quadrennial Homeland Security Review (DHS 
2014) says about climate change is far too tame. Our knowledge of the 
threat is growing, the risks are rising, and Government responses are 
weak and uncoordinated. Someone should be ringing alarm bells.
    In summary, the reason DHS is obligated to incorporate climate 
change into its risk framework is simple: Climate change is endangering 
Americans and disrupting our economy. It threatens to destabilize 
regions of high National interest. This logic justifies all the high-
level statements about climate as a National security threat. The same 
logic renders inexcusable the slow pace of meaningful action.
                               References
Adger, W.N., J.M. Pulhin, J. Barnett, G.D. Dabelko, G.K. Hovelsrud, M. 
        Levy, Oswald Spring, and C.H. Vogel (2014) ``Human security'' 
        in: Climate Change 2014: Impacts, Adaptation, and 
        Vulnerability. Part A: Global and Sectoral Aspects. 
        Contribution of Working Group II to the Fifth Assessment Report 
        of the Intergovernmental Panel on Climate Change [Field, C.B., 
        V.R. Barros, D.J. Dokken, K.J. Mach, M.D. Mastrandrea, T.E. 
        Bilir, M. Chatterjee, K.L. Ebi, Y.O. Estrada, R.C. Genova, B. 
        Girma, E.S. Kissel, A.N. Levy, S. MacCracken, P.R. Mastrandrea, 
        and L.L. White (eds.)]. Cambridge University Press, Cambridge, 
        United Kingdom and New York, NY, USA, pp. 755-791.
American Security Project (2014) ``The Global Security Defense Index on 
        Climate Change,'' http://globalsecuritydefenseindex.org 
        (accessed February 25, 2015).
Bellemare, Marc F. 2014, ``Rising Food Prices, Food Price Volatility, 
        and Social Unrest,'' American Journal of Agricultural Economics 
        doi:10.1093/ajae/aau038.
Broder, John (2012) ``C.I.A. Closes Its Climate Change Office,'' New 
        York Times (online) http://green.blogs.nytimes.com/2012/11/20/
        c-i-a-closes-its-climate-change-office/, accessed July 1, 2015.
Center for Systemic Peace (2015) ``Global Conflict Trends'' http://
        www.systemicpeace.org/conflicttrends.html (accessed June 3, 
        2015).
Fingar, Thomas (2008), ``National Intelligence Assessment on the 
        National Security Implications of Global Climate Change to 
        2030,'' Statement for the Record, House Permanent Select 
        Committee on Intelligence (June 25).
Food and Agriculture Organization (2015) ``FAO Food Price Index,'' 
        http://www.fao.org/worldfoodsituation/foodpricesindex/en/ 
        accessed February 25, 2015.
Goldstone, Jack A., et al. (2010) ``A global model for forecasting 
        political instability.'' American Journal of Political Science 
        54.1, 190-208.
Hsiang, S. M., Burke, M., & Miguel, E. (2013). ``Quantifying the 
        influence of climate on human conflict,'' Science 341(6151)
Maliniak, Daniel; Susan Peterson; Ryan Powers; and Michael J. Tierney 
        (2015) ``The Best International Relations Schools in the 
        World'' Foreign Policy http://foreignpolicy.com/2015/02/03/top-
        twenty-five-schools-international-relations/.
McDonnell, Timothy (2015) ``The CIA Is Shuttering a Secretive Climate 
        Research Program,'' Mother Jones (May 21) http://
        www.motherjones.com/environment/2015/05/cia-closing-its-main-
        climate-research-program, accessed July 1, 2015.
McElroy, Michael and D. James Baker (2012), ``Climate Extremes: Recent 
        Trends with Implications for National Security,'' available at 
        www.environment.harvard.edu/climate-extremes.
Mead, Walter Russel (2014) ``The Return of Geopolitics'' Foreign 
        Affairs (May/June) 93:3, 69-79.
Melillo, Jerry M., Terese (T.C.) Richmond, and Gary W. Yohe, Eds. 
        (2014) Climate Change Impacts in the United States: The Third 
        National Climate Assessment. U.S. Global Change Research 
        Program, 841 pp. doi:10.7930/J0Z31WJ2.
National Research Council (2013) Climate and Social Stress: 
        Implications for Security Analysis. Committee on Assessing the 
        Impacts of Climate Change on Social and Political Stresses, 
        J.D. Steinbruner, P.C. Stern, and J.L. Husbands, Eds. Board on 
        Environmental Change and Society, Division of Behavioral and 
        Social Sciences and Education. Washington, DC: The National 
        Academies Press.
Risky Business Project (2014) Risky Business: The Economic Risks of 
        Climate Change in the United States, www.riskybusiness.org.
Ruttinger, Lukas; Dan Smith; Gerald Stang; Dennis Tanzler, and Janani 
        Vivekananda (2015) ``A New Climate for Peace: Taking Action on 
        Climate and Fragility Risks,'' Independent report commissioned 
        for G7 members, available at http://www.newclimateforpeace.org/
        .
Schwartz, Peter and Doug Randall (2003) ``An Abrupt Climate Change 
        Scenario and Its Implications for United States National 
        Security,'' available at http://www.climate.org/PDF/
        clim_change_scenario.pdf.
U.S. Department of Defense (2014) Climate Adaptation Roadmap, 
        www.acq.osd.mil/ie/download/CCARprint_wForeword_c.pdf.
U.S. Department of Homeland Security (2014) The 2014 Quadrennial 
        Homeland Security Review.
        
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
       

    Mr. Perry. Thank you, Professor Levy.
    The Chair now recognizes himself for a few moments of 
questioning.
    Can you go back to a portion of your statement--I am sorry, 
I don't have the written text here, but you mentioned crop 
damage and something else. It was closer to the front, or the 
beginning of your statement. Can you refresh my memory?
    Mr. Levy. Sure. So this was a summary of the Risky 
Business----
    Mr. Perry. Right.
    Mr. Levy [continuing]. Study. The particular risks that 
they tried to itemize and quantify were losses from storm 
damage, crop losses, and disruptions to the energy system. That 
refers to the fact that there will be big swings in demand for 
electricity in different regions, different times, as the 
climate changes.
    Mr. Perry. Sure.
    But you would also acknowledge--because I am looking at 
your different graphs and so on and so forth here. I mean, 
there has to be a cause-and-effect relationship. While there 
may be more crop damage now based on storms or natural events 
that may or may not have anything to do with climate change--
may or may not, so I will acknowledge both sides--or storm 
damage or energy system utilization that has increased, but you 
also must acknowledge, or should, I would think, that there 
could be more crop damage because we can get more into an acre 
of ground than we ever have before. There may be more storm 
damage because we are more tightly compressed in urban centers. 
We have become more efficient. But the down side to that is, 
when these weather events occur, the damage is much more acute.
    So it is not necessarily directly causal. Yes, it does 
happen, but it is not necessarily just because of climate 
change or the weather event alone. Is that fair to say?
    Mr. Levy. You are reflecting something that is genuine and 
relevant and true, which is that the damage that occurs in any 
one event is a function of the value of the assets that are 
exposed and the magnitude of the risk. So the damage can go up 
as a function of the value of the assets going up. That is 
certainly true. When you look at the historical data, you have 
to take that into account.
    What is especially valuable about this Risky Business 
project is that they were only looking at the incremental risk 
from the effect of climate change, keeping the other things 
constant. So these risk estimates that they came up with are 
the risks only from the additional stress attributable to 
likely climate change.
    Mr. Perry. Okay.
    You are a vocal proponent that climate change acts as a 
threat multiplier, particularly in respect to a rise in 
militant groups or terrorism.
    What are the other threat multipliers? Where would you say 
climate change ranks in the panoply of threat multipliers?
    Mr. Levy. That is an excellent question. It is one of the--
answering that question is one of the recurring recommendations 
on the part of virtually every organized group to assess this 
risk for the U.S. Government. It is one of the things that 
requires more investment, not less.
    Some of the other multipliers include the spread of radical 
ideology; the growth of income inequality; the uncertainty 
about, you know, the shift in the balance of power 
geopolitically; the rise of globalization, which opens up 
access to markets and potentially creates grievances. There are 
a number of threats that we face, and they interact in 
complicated, potentially quite dangerous ways.
    The ability to understand how to rank-order all of those 
threats is currently quite low. It is a very challenging task 
because they interact, and so, in any one case, what you see is 
the resultant of all of them acting together.
    What has been done over the past 10 years is to isolate a 
small number of these threat multipliers and to ask the 
question, can we rule out the possibility that this one threat 
is not making any difference? Because one possibility is that 
all of this dangerous activity we see around the world is a 
function of all of those other threat multipliers and climate 
stress is not relevant.
    The statistical work that has been done over the last 
several years has enabled us to say that climate stress is 
adding a significant additional set of stresses to that mix. If 
we were lucky enough to live in a world without that stress, 
the world would currently be less dangerous. The bigger 
question you are asking has not been fully answered.
    Mr. Perry. So this might be a little off, based on that 
answer, but, in your opinion, then, what is the direct 
motivator for Islamic terrorism?
    Mr. Levy. That is outside of my area of expertise. I can 
comment on how that question is factored into aggregate risk 
assessments, but I cannot comment on the direct motivator of an 
Islamic terrorist.
    Mr. Perry. The President, in his speech that I referenced 
earlier and at the end of the last panel, in his speech before 
the Coast Guard Academy on May 20, linked climate change, more 
specifically droughts, with the rise of Boko Haram.
    Would you say that climate change was the primary cause of 
Boko--I am assuming you are familiar with Boko Haram.
    Mr. Levy. Yes.
    In a particular case that has multiple causes, it is 
virtually impossible to identify a prime cause or even to rank-
order the many different causes. Moreover, even if the drought 
in northern Nigeria was a major causal factor, that certainly 
does not mean that the many other things that are going on are 
irrelevant, and it doesn't take away any blame on the part of 
the people who chose to respond in the way that they did.
    What we can say from the evidence is that, when you look at 
all of the dangerous things that are happening, all of the 
threats to regional stability around the world, climate is 
stressing that overall mix in a more dangerous direction. It 
doesn't mean that you can take any one of those dangerous 
events and attribute it, yes or no, to climate stress. It means 
that the overall mix is more dangerous than it would have been 
without it.
    Mr. Perry. Let me ask you this. This may be a little out of 
your wheelhouse too, but just based on your publications and 
your body of work, if I were to tell you that there is not one 
agency at DHS, there is not one office, so to speak, not one 
program office to coordinate activities countering violent 
extremism, would you consider that a weakness?
    Mr. Levy. Well, I think it would depend on what is going on 
in the rest of Government. So, I have thought a lot about your 
comparison over the morning between----
    Mr. Perry. I mean, we looked at--this is what the 
publications, the whole of publications are for one topic, on 
violent extremism, and this is the whole of publications on 
climate change. So based on that.
    Mr. Levy. So the question of how much focus, how many 
publications there should be on countering violent extremism 
within DHS is a function of what kind of coordination is going 
on in the rest of Government and what kind of coordination is 
taking place that maybe is not showing up in published 
documents. So that I cannot comment on that whatsoever.
    I can say that the coordination to provide a response to 
the threats of climate-triggered security breakdowns within the 
U.S. Government is far below what every single expert body that 
has looked at the question has recommended.
    Mr. Perry. So--I am going to wrap up here, but I have one 
more.
    Mrs. Watson Coleman. Go ahead.
    Mr. Perry. So would you advise focusing--I mean, I know you 
are a proponent, but I just want to make sure I understand your 
position--focusing more on climate change at the expense of 
increasing CVE efforts, countering violent extremism?
    Mr. Levy. No, I would not. I----
    Mr. Perry. Okay. All right.
    You know, I have looked at--you are well-published, I am 
sure well-read, well-respected, and involved in a whole host of 
things that I can't imagine how you get through your day. You 
look like you should be 150 years old based on your resume, et 
cetera, here.
    I don't know if this is in your wheelhouse either, but if 
you are familiar with history, and somewhat recent history, 
World War II, there was a thing called the terror famine 
carried out by the Communist Russians in Ukraine and 
surrounding areas. Then there was an issue of the Kaytn 
massacre of Polish officials, which were denied by the Soviet 
Union for decades, decades upon decades, and not only denied by 
the Soviet Union and the Russians, but also that denial was 
upheld by experts and governments around the world, including 
this one.
    My only reason to bring those things into light regarding 
this discussion is--you have a master's on advanced 
international studies and a bachelor's from Dartmouth in 
government, right? So you take the information from the climate 
scientists and you take information from political scientists, 
all that information, and you sublimate that and then put it 
back together and make some sense of it and put it in graphs 
for us to see, right?
    But if that information is flawed, if it could be flawed, 
if it may be flawed, as the two examples that I gave--we walked 
around for the last 60 or 70 years thinking that the Russians 
didn't do this, that the Germans did, or the Russians didn't do 
it at all, and we were wrong. We were wrong.
    So my only point is that, while you are compiling the 
information from all these different groups that we all have 
consensus on, it doesn't necessarily mean that it is correct.
    With that, I yield to the gentlelady from New Jersey.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you, Mr. Levy.
    When I read your testimony last night, it actually alarmed 
me. I was like, oh, my God, it is almost Armageddon here, 
calling for--or not doing the things that we need to do in 
order to protect ourselves.
    I need to understand from you, what do you think--do you 
think that there is a high potential of radicalization of 
individuals here in our country based upon some of the factors 
that they see that have come about as a result of droughts and 
other situations caused by climate change in the world, across 
the sea? Do you think that that has in any way, shape, or form 
spurred on any of our young people to become radicalized?
    Mr. Levy. I am not aware of any evidence that that is the 
case.
    I think that, on balance, the response of the U.S. 
Government to climate-related stresses within our own borders 
has been fairly good. We could do more, but I think the 
response is, for the most part, appropriate.
    But where you get radicalization is more commonly where you 
have a very big threat, very big impacts on livelihoods and 
lives, and the Government is either doing nothing or they are 
actually making it worse. So you see this in many parts of the 
world. You have seen it, for example, in Syria over the last 8 
years. When that happens, things can get very bad very fast.
    I think in this country that particular linkage is 
something we probably don't have to worry a whole lot about, 
but, you know, I have always been surprised at how things 
unfold.
    Mrs. Watson Coleman. Do you have a sense of our 
vulnerability to diseases coming our way as a result of 
population shifting or migration of even other birds, bees, and 
whatever to our country as a result of--or just coming north or 
coming from wherever, wherever there are these sort of stresses 
on the environment in which they are native?
    Mr. Levy. So this is a question that is very relevant. It 
turns out to be a question that is hard to provide a specific 
predictive answer to. So the exact date by which dengue may 
become a significant disease in the United States, things like 
that are--the existing science does not really support that 
sort of thing.
    But what we can do is point to large bodies of research 
that identify that the risk framework is radically changing 
because of the interaction of climatic stress and population 
movement and globalization, so that people who are charged with 
protecting Americans from major epidemics have to take into 
account the effect that climate change will have on those 
risks, because the likelihood that it will have a big effect is 
quite high, even if we can't point to a specific disease, a 
specific date.
    An example is, if you look at historically the major global 
influenza pandemics, there is now growing evidence that there 
is a likelihood that the timing of those global pandemics of 
influenza were triggered by climatic anomalies. It has not been 
proven beyond a doubt, but the evidence is suggestive that that 
is a very strong possibility.
    So that becomes a risk that we have to take into account 
when we think about what is the likelihood that our country 
could be hit with the consequences of a global flu pandemic.
    Mrs. Watson Coleman. So when you said--thank you.
    When you said that the question here for us is not whether 
or not we are doing too much or our priorities are askew 
because there is too much emphasis on this issue, you said it 
is the exact opposite.
    Were you speaking just with regard to the Department of 
Homeland Security, or are you speaking about Federal 
Government, you know, and its other departments?
    Mr. Levy. So I was speaking specifically about the 
functions that have been identified in some of these recent 
high-level studies which call for coordination, systematic risk 
assessment, and periodic stress-testing to be able to provide 
warning about likely high-magnitude threats.
    Mrs. Watson Coleman. So that is beyond just the one 
department.
    Mr. Levy. Exactly.
    Mrs. Watson Coleman. So my question to you: What would you 
recommend that we think about doing that would put us in a 
position to be more, sort-of, proactive and more able to assess 
these risks, to anticipate and to sort of assign and align?
    Mr. Levy. So are you speaking specifically about the 
Department or the Government as a whole?
    Mrs. Watson Coleman. I was actually speaking about the 
Government as a whole. Then my question would be: Do you see 
DHS as a coordinator of some of this? Because its function is 
to keep the homeland--its mission is to keep the homeland safe.
    So, with that, that would be my only question--those two 
questions, actually.
    Mr. Levy. So, if you go back to the idea of a threat 
multiplier, the net risk comes about as climate stress 
interacts with a range of other things. In each place, the 
suite of those factors that combine are different and unique.
    So what we need is an ability to do first-order estimates 
of how those things are interacting in places that are of vital 
interest and to anticipate how those interacting threats might 
unfold in a way that would make a big difference to us, and 
then to provide adequate warning to people that can take steps 
to either mitigate those risks or to respond to them after they 
unfold.
    At present, there is no organized effort to do that for 
these climate security risks. We have people talking about the 
dangers; we don't have people acting on the recommendations.
    So, within the purview of DHS, I think a very simple thing 
could be taking some of these recommendations and doing a 
survey of all the Government agencies that are responsible in 
some way for monitoring and assessing and warning about these 
risks, to see what they are doing to contribute to that need 
and see where the gaps can be filled most efficiently.
    Mrs. Watson Coleman. Okay. Thank you.
    Thank you, Mr. Perry.
    Mr. Perry. The Chair thanks the gentlewoman, the Ranking 
Member from New Jersey.
    With that, I also thank you, Professor. Sorry it was short, 
but I hope the whole thing was instructional. Your testimony 
and insight is valuable to us, as well.
    I also thank the Members for their questions.
    Members of the subcommittee may have some additional ones 
for the witness, and so we would ask you to respond with those 
in writing, if you could.
    With that, pursuant to Committee Rule 7(e), the hearing 
record will be open for 10 days, without objection.
    This subcommittee stands adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
